<html>
<title> - EXAMINING THE MILITARY'S SUPPORT OF CIVIL AUTHORITIES DURING DISASTERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 EXAMINING THE MILITARY'S SUPPORT OF CIVIL AUTHORITIES DURING DISASTERS 

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

                           Serial No. 110-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-564 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (ii)






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    35

                               Witnesses

Mr. Glenn Cannon, Assistant Administrator for Disaster 
  Operations, Federal Emergency Management Agency:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Major General Timothy J. Lowenberg, Adjutant General, State of 
  Washington:
  Oral Statement.................................................     7
  Prepared Staement..............................................     9
Major General Tony Pineda, National Commander, Civil Air Patrol:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Major General Terry L. Scherling, Director of the Joint Staff, 
  National Guard Bureau:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Mr. Mike Womack, Director, Mississippi Emergency Management 
  Agency:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27


 EXAMINING THE MILITARY'S SUPPORT OF CIVIL AUTHORITIES DURING DISASTERS

                              ----------                              


                       Wednesday, April 25, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1539, Longworth House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Christensen, Etheridge 
and Dent.
    Mr. Cuellar. The subcommittee will come to order.
    The hearing will be on Examining the Military's Support of 
Civil Authorities during Disasters.
    I think we are going to be having Mr. Reichert join us in a 
few minutes, so I will ask for unanimous consent to allow the 
gentleman from Washington, Mr. Reichert, when he does come in, 
to sit here and question the witnesses at today's hearing. 
Without objection, it is so ordered.
    Good morning. First of all, on behalf of the members of the 
subcommittee and our ranking member, Mr. Dent, let me welcome 
our panel. We are glad that you are here to discuss how the 
National Guard and other organizations, such as the Civil Air 
Patrol, can assist and coordinate with State and Federal 
emergency management officials in the wake of disasters.
    We are also going to look at the resources that these 
organizations can provide to aid in response efforts. During 
Hurricane Katrina, the work done by the National Guard saved 
countless lives and can be held up as a real success story in 
the wake of that enormous tragedy that we had.
    However, stretched thin by the wars in Iraq and 
Afghanistan, the National Guard is less equipped now than it 
has ever been to respond to a major terrorist attack or a 
natural disaster. According to the National Guard, 88 percent 
of the Army National Guard units and 45 percent of the Air 
National Guard units that are not deployed overseas have severe 
equipment shortages. In addition, on March 1, 2007, the 
commission on the National Guard and Reserves issued its second 
report to Congress. Arnold J. Punaro, the chairman of the 
commission and a retired Marine Corps major general, said that 
these shortages have reduced the Guard to its lowest readiness 
level ever, and this poses an unacceptable risk to Americans. 
This report also faulted the Department of Homeland Security 
for failing to identify the domestic missions the National 
Guard should be expected to perform. It also criticizes the 
Defense Department for not equipping the National Guard 
adequately for those missions. This hearing will allow us to 
examine how inadequate equipping limits the National Guard's 
emergency response potential.
    I am also look forward to hearing from representatives of 
the Civil Air Patrol on ways their organization believes it can 
be better utilized during disaster. I know that Ranking Member 
Dent has been a big proponent of this effort.
    I am interested to see if State emergency managers and FEMA 
have utilized CAP as an organization to bolster domestic 
response capabilities and whether or not legislative changes 
are required to support their involvement or whether they can 
do it at this time under the existing framework.
    I must also note that this is the first in a series of 
hearings that the Homeland Security Committee will hold looking 
at the role of military components in our Nation's homeland 
security and emergency response efforts.
    The Border Security Subcommittee, which I also sit on, will 
soon examine Operation Jump Start and force multiplication for 
the Border Patrol. This is an extremely important issue for 
this committee, and we thank you for being here.
    I once again thank all of the witnesses for being here with 
us, and I thank them for their testimony. I look forward to a 
productive discussion.
    At this time, the chair will recognize the ranking member 
of the subcommittee, the gentleman from Pennsylvania, Mr. Dent, 
for an opening statement.
     Mr. Dent. Thank you, Chairman Cuellar, and I thank you for 
holding this hearing today. I truly appreciate everybody's 
attendance.
    As we are all aware, a terrorist attack or natural disaster 
is, first and foremost, a local event. Because both State and 
local resources may be quickly overwhelmed, Congress has 
directed the Federal Government to stand ready to provide 
assistance. This assistance may be in the form of additional 
manpower, including law enforcement personnel, emergency 
supplies, food and water, power generators, and backup 
communications systems. We saw after Hurricane Katrina and, 
more recently, after the tornadoes and heavy snow that occurred 
earlier this year, that the military is often called upon to 
assist in Federal or State emergency response efforts.
    Today, we have with us both Federal and State officials to 
discuss coordination between the military and civilian 
emergency management officials. I look forward to discussing 
with General Scherling how the National Guard prepares its 
personnel and equipment to be deployed after a terrorist attack 
or natural disaster. Also with us today is Major General Tony 
Pineda, who is National Commander of the Civil Air Patrol. 
During a trip to the border last summer in Laredo, Texas, with 
Chairman Cuellar, I was disturbed and surprised to learn that 
the Border Patrol does not have access to enough aviation 
assets to adequately protect the border. Meanwhile, the Civil 
Air Patrol has a force of approximately 55,000 members across 
the country, and a fleet of over 500 aircraft ready to help the 
Border Patrol secure the border. I look forward to discussing 
with General Pineda how the Civil Air Patrol could assist the 
Department of Homeland Security in securing the border, as well 
as in emergency response activities, such as search and rescue, 
which I know are currently ongoing.
    I would also like to thank all of the witnesses again for 
being with us here today, and again, I thank Chairman Cuellar 
for holding this very important hearing and for the series of 
upcoming hearings. Thank you.
    Mr. Cuellar. Thank you, Mr. Dent.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record. At this time, I would like to welcome the panel of 
witnesses.
    Our first witness will be Major General Terry Scherling. 
She is the Director of the Joint Staff of the National Guard 
Bureau. Previously, General Scherling was the Deputy Director 
for antiterrorists in the homeland defense and the Joint 
Director for the military support operations of the Bureau 
Joint Staff.
    Our second witness is Major General Timothy Lowenberg, and 
he has been the adjutant general for the State of Washington 
since September 1999. As the adjutant general, he guides the 
appropriations of the Washington Army and Air National Guard, 
citizen soldiers and airmen and women to respond in times of 
State or national emergency.
    Our third witness is Major General Tony Pineda, who is the 
National Commander of the Civil Air Patrol. CAP is a volunteer 
organization that performs search-and-rescue missions as well 
as aerospace education in-depth programs.
    Our fourth witness is Glenn Cannon, who is FEMA's Assistant 
Administrator for disaster operations. He is responsible for 
coordinating the development and execution of interagency 
plans, policies, procedures, and floor response operations 
during disasters. He is the director of the division of the 
State fire marshals in Florida.
    Our final witness is Mike Womack, who is the Director of 
the Mississippi Emergency Management Agency. He served for 2 
years as the agency's deputy director and led them through 
response and recovery efforts. Mr. Womack previously served for 
29 years in the active and Reserve service. He retired in June 
2001 as a lieutenant colonel with the Mississippi Army National 
Guard.
    Mr. Cuellar. We are pleased to have all of you present, and 
without objection, members' and the witnesses' full statements 
will be inserted in the record, and now I ask each witness to 
summarize their statement in 5 minutes, beginning with General 
Scherling.
    Welcome.

 STATEMENT OF MAJGEN TERRY L. SCHERLING, DIRECTOR OF THE JOINT 
                  STAFF, NATIONAL GUARD BUREAU

    General Scherling. Thank you for the opportunity to speak 
to you today as you examine the National Guard's military 
support to civil authorities during disasters.
    We meet at a trying time in history when our Army and Air 
National Guard are partnered with our active component Army and 
Air Force in combat operations. You can be proud that the 
citizen soldiers and airmen of your Army and Air National Guard 
are ready to answer this Nation's call to arms. The National 
Guardsmen who are mobilized and deployed overseas are superbly 
trained and equipped. They serve shoulder to shoulder with 
active duty counterparts, all of them unquestionably the best 
trained and best equipped American fighting force in history.
    While our combat soldiers and airmen continue to be 
superbly equipped when they arrive in the combat theater, the 
equipment we bring there gets used up, blown up or left behind. 
We have seen the readiness of our units here at home decline 
over time to the point today where it severely limits our 
ability to fulfill our homeland security mission, that of the 
Department of Defense's first responders to a domestic 
disaster. The good news is that the most challenging part of 
our country's homeland security military response force is 
already in place, and that is our personnel. We have the best 
educated, best trained and most experienced population of 
guardsmen in history.
    Last week, the Army National Guard celebrated reaching an 
end strength goal of more than 350,000 troops. The real 
difficult problem, that of attracting quality recruits, 
seasoning them and keeping them, has been solved. Now we need 
to turn our attention to giving them the tools to train with 
and to maintain their readiness to do their jobs both abroad 
and at home.
    I have with me today two of the brightest examples of our 
Nation's treasure, and that is your National Guard members, 
Master Sergeant Regina Stoltzfus of the Pennsylvania National 
Guard and also Sergeant First Class William Edgar of the 
Mississippi Army National Guard. They have served with 
distinction in both the Federal and State missions of the 
National Guard.
    Master Sergeant Stoltzfus has been deployed to Balad, Iraq, 
as a first sergeant of a communications squadron. She served 
shoulder to shoulder in the combat zone with active Air Force 
Airmen. We often hear that it is impossible to tell the 
difference between Guardsmen and active duty troops while 
serving together in combat, but we know that, occasionally, you 
can tell the difference, and most often, Guardsmen often 
perform better.
    Sergeant Stoltzfus, for example, was recognized by the wing 
commander as the top first sergeant in Iraq during her 
deployment. This past winter when winter storms shut down three 
major highways in Pennsylvania, Sergeant Stoltzfus answered the 
emergency call to the Governor with the rest of her guard unit, 
performing traffic control and rescuing stranded motorists in 
extreme weather conditions.
    Sergeant First Class William Edgar is employed full time by 
the Mississippi National Guard Counterdrug Program, but he 
still trained for his Federal mission and has deployed twice to 
Afghanistan. He was awarded the Army's Bronze Star during his 
last combat tour in Afghanistan. When back in Mississippi, 
Sergeant Edgar has supported the local, State and Federal law 
enforcement community in the United States in their fight 
against illegal drugs and as an intel analyst detailed to the 
Mississippi Office of the Federal Drug Enforcement Agency. He 
is now at the Regional Counterdrug Training Academy as the 
supply sergeant. This academy is one of four in the United 
States and provides no-cost training to law enforcement 
officers in military, specialty skills that later can be used 
to leverage the fight against drugs.
    The contributions of Sergeant Stoltzfus and Sergeant Edgar 
to the security of our Nation both at home and overseas reflect 
great credit upon our National Guard, and I am proud that they 
could join me here today as representatives of the 460,000 
National Guardsmen who stand ready to respond to America's call 
both at home and abroad.
    The biggest obstacle the National Guard faces in performing 
our homeland security mission is critical shortages of 
equipment. As documented in a GAO report, the Army National 
Guard has on hand approximately 40 percent of its equipment. 
And the Air National Guard has approximately 55 percent of its 
equipment on hand, leaving us critically short of equipment to 
do our combat missions.
    Mr. Chairman, as Sergeant Stoltzfus and Sergeant Edgar ave 
so proudly demonstrated, your National Guard is fully up to the 
task of answering the call both at home and abroad.
    I am grateful for the opportunity to appear before the 
committee today, and I welcome your questions.
    [The statement of General Scherling follows:]

            Prepared Statement of MajGen Terry L. Scherling

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to speak to you today as you examine the 
National Guard's military support to civil authorities during 
disasters. We meet at a trying time in our history, when our Army and 
Air National Guard are partnered with our active component Army and Air 
Force in combat operations. You can be proud that the citizen-soldiers 
and airmen of your Army and Air National Guard are ready to answer the 
Nation's call to arms. The National Guardsmen who are mobilized and 
deployed overseas are superbly trained and equipped. They serve 
shoulder to shoulder with active duty counterparts; all of them 
unquestionably the best trained and best equipped American fighting 
force in history. But over the past four years, the pace of these 
combat operations has been intense and not sustainable. The needs of 
the war fight have driven us to raid the shelves of our garrison force. 
While our combat soldiers continue to be superbly equipped when they 
arrive in the combat theatre, the equipment we bring there gets used 
up, blown up or left behind. We've seen the readiness of our units here 
at home declined over time, to the point today were it severely limits 
our ability to fill our homeland security mission, that of the 
Department of Defense's first responders to a domestic disaster.
    The good news is that the most challenging parts of our country's 
homeland security military response force are already in place. In your 
National Guard today we have the best educated, best trained, most 
experienced population of Guardsmen in history. Last week the Army 
National Guard celebrated reaching the end strength goal of 350,000 
troops. The really difficult problems: that of attracting quality 
recruits, seasoning them and keeping them, have been solved. Now we 
need to turn our attention to giving them the tools they need to train 
and stand ready to do the job we need them to do, at home and abroad.
    I have with me today two of the brightest examples of the national 
treasure that is your National Guard; Master Sergeant Regina Stoltzfus 
of the Pennsylvania Air National Guard and Sergeant First Class William 
Edgar of the Mississippi National Guard. They have served with 
distinction in both the Federal and State missions of the National 
Guard. Master Sergeant Stoltzfus, while deployed to Balad, Iraq as the 
first sergeant of a communications squadron, served shoulder to 
shoulder in the combat zone with active Air Force airmen. We often hear 
that it is impossible to tell the difference between Guardsmen and 
active troops serving together in combat but we know that force wide 
you can tell the difference--Guardsmen often perform better. Sergeant 
Stoltzfus, for example, was recognized as the top first sergeant in 
Iraq during her deployment.
    Sergeant First Class William Edgar is employed full time by the 
Mississippi National Guard Counterdrug program. But he still trained 
for his federal mission and has deployed twice to Afghanistan. During 
his last tour, he was awarded the Army's Bronze Star during his last 
combat tour in Afghanistan. When back in Mississippi, Sergeant Edgar 
has supported the local, state and federal law enforcement community of 
the U.S. in their fight against drugs as an intelligence analyst 
detailed to the Mississippi office of the Federal Drug Enforcement 
Agency, and now at the Regional Counterdrug Training Academy as the 
supply sergeant. That school, one of four in the U.S., provides no cost 
training to law enforcement officers in military specialty skills that 
they later leverage in the fight against drugs.
    The contributions of Sergeant Stoltzfus and Sergeant Edgar to the 
security of our nation, both at home and overseas, reflect great credit 
upon our National Guard and I'm am proud that they could join me here 
today as representatives of the 460,000 National Guardsmen that stand 
ready to respond to America's call at home and abroad.

Guard Homeland Security Capabilities
    The National Guard's role as our premier homeland security military 
responders is the product of a deliberate transformational effort. The 
Guard has identified ten of our core group military skills that are 
most applicable to our homeland security mission. I share with you now 
each of those ten capabilities, which have, like Sergeant Stolzfus and 
Sergeant Edgar, a dual application to both the overseas war fight and 
the homeland security mission.

Joint Force Headquarters--Command and Control
    The Guard has stood up a Joint Force Headquarters command and 
control element in every state and territory to provide 24/7 
connectivity to speed the response to domestic emergencies. The 
deliberate planning skills of the military are integrated into each 
state's emergency plans through frequent joint planning sessions and 
exercises with our civilian emergency management and emergency response 
officials. The Guard has built a capability to train military and civil 
first responders for a variety of homeland disaster scenarios.

Civil Support Teams
    Every state and territory also now has a full time 22 man WMD civil 
support teams trained to detect, identify and assist the civil 
emergency response to a chemical, biological, radiological, nuclear or 
high yield explosive event. These teams train and respond every day in 
communities throughout America. In the event of a more severe incident, 
the Guard has twelve (soon to be seventeen) more robust CBRNE Enhanced 
Response Force Packages; prepared to respond with specialized equipment 
and technical rescue and decontamination skills that will save lives in 
the aftermath of an attack or natural disaster.

Maintenance
    The manpower intensive requirement to maintain and repair essential 
emergency equipment is critical to a sustained emergency response. The 
Border Patrol reports a 10% improvement in the utilization rate of 
their vehicle fleet since Guard mechanics began to support their 
operation.

Aviation
    Guard aircraft bring mobility in the vertical dimension over 
difficult terrain and speed of movement in the fourth dimension of time 
in emergency response scenarios where time means lives.

Engineer
    Heavy equipment and construction units of the Guard are currently 
making infrastructure improvements along the Southwest border that will 
improve the efficiency of the Border agents long after the Guard troops 
have returned home.

Medical
    The deployable emergency medical capability of the Air National 
Guard is one of the most intuitive homeland security needs of our 
nation. The Guard has a quick response, self sustaining medical 
capability.

Communications
    In addition to the self sufficient military communications 
capability of our units, we've fielded a civil / military interoperable 
communications capability in every state and territory that enables 
civil responders to communicate with their military counterparts.

Transportation
    As we saw in Hurricane Katrina, the military has the capability, 
unique in the homeland, to move great quantities of people and 
equipment.

Security
    The National Guard leverages several specialized military skills to 
the security needs of our nation. We have critical infrastructure 
protection teams that are analyzing the vulnerabilities our civil, 
military and cyber high value assets. Every US state and territory has 
a reaction force trained and ready maintain civil security, in addition 
to the military police and security forces resident in the Guard. The 
Air Guard maintains fighter jets ready to respond on a moment's notice 
to threats in the airspace over America. We present programs to reduce 
the demand for drugs in our schools and communities and continue our 
support of domestic law enforcement operations with our counterdrug 
program. The counterdrug program supports law enforcement with 
observation and analysis of criminal activity and training of law 
enforcement officers. In June 2005, that effort became the model for 
our support to the Border Patrol when we deployed 6000 Guardsmen for 
Operation Jumpstart to the Southwest border. The Guard State 
Partnership Program reaches outside America's borders to developing 
countries and builds personal bridges that improved our security 
situation at home.

Logistics
    The military has a unique ability to sustain operations in an 
austere environment. The military specialty of reception, staging, 
onward movement and integration is employed in every major domestic 
response scenario and is essential to get resources to the citizens in 
need.

The National Guard's equipment needs
    The biggest obstacle the Guard faces to performing the missions 
described above is a critical shortage of equipment.
    As documented in a GAO report, the Army National Guard has on-hand 
only 40% on average of its equipment requirement across the nation. 
This will slow our response to disasters and terrorist incidents in the 
homeland, as equipment may need to be brought into an affected area 
from further away.
    Without this needed equipment, 88 percent of the Army Guard units 
based in America, available to their Governors for an emergency, report 
``not combat mission ready'' which can roughly be equated to the 
ability to respond to a domestic emergency.
    For the first time, domestic based Air National Guard units are now 
reporting not combat ready as well. Because of flux in the structure of 
the Air Guard, many units are in transition between their old and yet 
to be defined future mission. The period of uncertainty leaves 45% of 
Air Guard units lacking the gear needed to train for and perform their 
combat mission.

Conclusion
    Mr. Chairman, as Sergeant Stoltzfus and Sergeant Edgar have so 
proudly demonstrated, your National Guard is fully up to the task of 
answering the call to duty, both at home and abroad, if only given the 
tools to do so.
    I am grateful for the opportunity to appear before the committee 
today and welcome your questions.

    Mr. Cuellar. Thank you very much, and I appreciate your 
statement.
    At this time, I would recognize General Lowenberg to 
summarize your statement in 5 minutes.

  STATEMENT OF MAJGEN TIMOTHY J. LOWENBERG, ADJUTANT GENERAL, 
                      STATE OF WASHINGTON

    General Lowenberg. Thank you, Mr. Chairman, and members of 
the committee, for the opportunity to testify before you today 
on behalf of Governor Christine Gregoire of the State of 
Washington and the Washington State legislature and the 
Adjutants General Association of the United States.
    Although I am a U.S. Senate-confirmed general officer of 
the Air Force, I want to stress that I am here today in State 
status at State expense, and so nothing I have said in my 
formal testimony or in these oral remarks has been previewed or 
edited by the Department of Defense.
    In a majority of the States and territories, the adjutant 
general is responsible for managing all of the State's 
emergency management functions in addition to command and 
control of the National-Guard. We are responsible also for 
developing and executing our State homeland security strategic 
plan, so adjutants general have extensive experience in 
responding to domestic emergencies.
    In our State, for example, we have averaged more than one 
presidential disaster declaration scale event in our State 
every year for the past 40 years, and the Governor's control of 
the National-Guard was particularly instrumental in restoring 
order and assisting civil authorities during the World Trade 
Organization riots in Seattle in November of 1999, something 
that also happened on my watch.
    So I draw upon these experiences in telling you the passage 
of H.R. 869 is critical to restoring historic and appropriate 
State-Federal relationships and in enabling States to carry out 
their responsibilities under the U.S. Constitution for 
maintaining civil order and protecting their citizens' property 
and lives. There are many, many things I could address, given 
the topic before the committee this morning, but very few of 
them are more important than repealing the provisions in last 
year's Defense Authorization Act that substantially expanded 
the President's unilateral marshal law authority, something 
that reversed well more than a century of well established and 
carefully balanced State, Federal and civil military 
relationships without calling a single witness, without 
conducting a single hearing and without any public or private 
acknowledgment of proponency or authorship of that change.
    I suggest to you that, when changes are made to the law for 
the better, there are many, many people who claim some measure 
of responsibility for the passage of that provision. This is a 
provision which has no DNA, no fingerprints, no one who is 
claiming authorship, in fact, no one who will even acknowledge 
having reviewed or having coordinated on the change before it 
appeared in conference. And it was voted off the Floor of the 
House on the same day the conference report was filed.
    There were weaker provisions in section 511 of the 
House<dagger>passed version of the Defense Authorization Act 
that were unanimously opposed by the Nation's Governors. I have 
submitted with my formal testimony a copy of a letter signed by 
all 50 Governors. There have only been two times in the history 
of the National Governors Association in which every Governor 
has signed on to correspondence to the Congress and to the 
executive branch. Both occurred in the past 18 months. Both 
involved National Guard issues. This is one of them. So this is 
not a partisan issue. It is a State Federal issue of the 
highest order. These conference amendments give the President 
sweeping power to unilaterally take control of the National 
Guard during a domestic incident without any notice, contact or 
consultation with the Governor. It even permits the President 
to take control of the National Guard in the middle of a 
Governor-directed response-and-recovery operation. The U.S. 
Northern Command has wasted very little time, Mr. Chairman, in 
acting on these new powers.
    Secretary Gates approved a final CONPLAN developed by 
Northern Command on March 15, 2007. The plan explicitly assumes 
that the Guard will be Federalized. When the President 
unilaterally invokes the act, neither adjutants general nor 
Governors were given any notice of the development of these 
Federal operational plans nor have we had any opportunity to 
present our concerns or to synchronize the Governors' approved 
State plans with the Northern Command plan. To add insult to 
injury, this plan requires the Joint Forces Headquarters of 
every State to develop the very plans under which the President 
would take control of our forces. One key planning assumption 
is that the President will use this authority if he concludes 
that local or State authorities lack the will to enforce the 
laws.
    It is a very highly subjective standard, again, developed 
with no notice or consultation with the Governors of the 
several States and territories. So the Adjutants General 
Association of the United States joins the legislature of our 
State--which passed a joint memorial resolution--the National 
Governors Association, the National Lieutenant Governors 
Association, the National Conference of State Legislatures, the 
Enlisted Association of the National Guard of the United 
States, the National Emergency Management Association, the 
National Sheriffs Association, the International Association of 
Emergency Managers, and many, many other national associations 
in urging members of this committee, if you have not already 
done so, to please consider cosponsoring H.R. 869 and to work 
for its swift passage. It is imperative that we have unity of 
effort at all levels when responding to domestic emergencies.
    Section 1076 of last year's Defense Authorization Act 
openly invites disharmony, confusion and the fracturing of what 
should be a united effort at the very time when States and 
territories need Federal assistance, not a Federal takeover in 
responding to State and local emergencies.
    Thank you very much, Mr. Chairman, and members of the 
committee, for allowing me on behalf of my State, my State 
legislature, my Governor, and the adjutants general of the 
United States to express our concerns. I look forward to your 
questions.
    [The statement of General Lowenberg follows:]

             Prepared Statement of MajGen Timothy Lowenberg

    Thank you for the opportunity to appear before you today. I want to 
emphasize at the outset that I am testifying on behalf of the State of 
Washington and the Adjutants General Association of the United States 
(AGAUS). Although I am a federally recognized and U.S. Senate-confirmed 
Air Force General Officer, I appear before you today as a state 
official in pure state status and at state expense. My formal 
testimony, oral statement and responses to your questions should 
therefore be understood as independent expressions of states' sovereign 
interests. Unlike other military panelists who typically appear before 
you, nothing I am about to say has been previewed, edited or otherwise 
approved by anyone in the Department of Defense.

    The Role of Adjutants General in Support of Civil Authorities 
During Disasters
    In a majority of the states and territories, including the State of 
Washington, the Adjutant General is responsible for all state emergency 
management functions in addition to command and control of the state's 
Army and Air National Guard forces. In addition, I am responsible for 
Washington's statewide Enhanced 91 1 telecommunications system and for 
developing and executing our statewide Homeland Security Strategic Plan 
and administering all of our Homeland Security grant programs. 
Washington has averaged more than one Robert T. Relief and Emergency 
Assistance Act (the Act, 42 U.S.C. sections 5121 Presidential Disaster 
declaration a year for the past 40 years and our National Guard forces, 
acting under the command and control of the Governor and the Adjutant 
General, have been an indispensable response force in nearly every one 
of these disasters. The Governor's use of the Washington National Guard 
was especially instrumental in helping civil authorities restore public 
order in Seattle during the World Trade Organization riots in November 
1999.
    I speak to you, therefore, as my state's senior official 
responsible for military support to civil authorities during disasters. 
I have experience as both a supported state commander (the WTO riots 
referenced above) and supporting state commander (I deployed more than 
1,000 National Guard soldiers and airmen to Gulf Coast states in 2005 
in response to Hurricanes Katrina and Rita).
    Five and one-half years after the terrorist attacks of September 1 
1,2001, the federal government has unfortunately not come to grips with 
how federally controlled military force will be used domestically or 
how federal military forces will operate with regard to ongoing 
National Guard response and recovery operations under the control of 
the governors -the Commanders-in-Chief of the several States and 
territories. In last year's Defense Authorization conference, language 
was inserted that amends and substantially expands the President's 
Martial Law powers notwithstanding the universal opposition of the 
nation's governors. In doing so, the conference chairs reversed more 
than 100 years of well-established and carefully balanced state-federal 
and civil-military relationships. They did so without a single hearing, 
without calling a single witness and without any public or private 
acknowledgement of authorship of the change. HR 869 would repeal these 
ill-advised provisions. Although there are many issues concerning 
military support to civil authorities that I could address at this 
hearing, none are more important than those raised by HR 869.
    HR 869 (and S.513) is not an esoteric, ``academic'' or 
``technical''subject for Governors and Adjutants General. Section 1076 
of the 2007 National Defense Authorization Act (Public Law 109-364; 
hereafter referred to as the 2007 NDAA) has very negative and 
destructive implications for the state, local and federal unity of 
effort called for in Homeland Security Presidential Directive 5 (HSPD 
5) and in the comprehensive emergency management plans of the several 
states and territories. Under the U.S. Constitution, states retain the 
primary responsibility and authority to provide for civil order and 
protection of their citizens' lives and property. Passage of HR 869 is 
critical to restoration of historic state-federal relationships and to 
the states' ability to carry out their constitutional responsibilities.

                      Applicable Federal Statutes

    The Posse Comitatus Act (8 U.S.C. 1385) punishes those who, 
``except in cases and under circumstances expressly authorized by the 
Constitution or Act of Congress, willfully use any part of the Army or 
the Air Force as a posse or otherwise to execute the laws. . .'' The 
Posse Comitatus Act does not apply to the National Guard when in state 
active duty or federal Title 32 service because the Guard is under the 
command and control of the Governor and the Adjutant General in both 
statuses. It does apply to the Guard when in Title 10 service, however, 
because when the Guard is federalized under Title 10 it becomes an 
indistinguishable part of the federal forces and is under federal as 
opposed to state control.
    The Robert T. Act (cited above) authorizes the President to make a 
wide range of federal services available to states that are victims of 
natural or human-caused disasters. The Act authorizes the use of 
federal military forces for the widest possible range of domestic 
disaster relief but not for maintaining law and order and not as an 
exception to the Posse Comitatus Act. Some other independent authority 
is required if federal military force is to be used to enforce the 
laws.
    The Insurrection Act (enacted in 1807) delegates authority to the 
President to federalize and deploy the National Guard domestically in 
response to an insurrection or civil disturbance (10 U.S.C. Sections 
331-335). Section 331 authorizes the President to use federal military 
forces to suppress an insurrection at the request of a state 
government. Section 332 authorizes the President to use military forces 
in such manner as he deems necessary to enforce the laws or suppress a 
rebellion. Section 333 authorizes the President to use federal military 
forces to protect individuals unlawful actions that obstruct the 
execution of federal laws or which impede the course of justice under 
federal laws. Section 333 was enacted to implement the Fourteenth 
Amendment and does not require the request or consent of the governor 
of the affected state.
    Prior to the 2007 National Defense Authorization Act conference 
amendments, therefore, there were carefully crafted statutes that 
delegated authority to the President to federalize the National Guard 
and to employ the Title 10 National Guard forces and other Title 10 
active duty military forces for domestic purposes in response to 
domestic emergencies (Stafford Act) violence (Insurrection Act). The 
Insurrection Act's martial law authority has been used sparingly. In 
fact, it has been invoked only 10 times in the past half-century. In 
every instance in which it has been used in the past 40 years, the 
President has acted at the request and with the concurrence of the 
governor of the state whose National Guard forces were federalized.

              The 2007 National Defense Authorization Act

      Expands Federal Martial Law by Amending the Insurrection Act

    The House-passed version of the 2007 National Defense Authorization 
Act (NDAA) proposed to expand the circumstances in which the President 
could seize control of the National Guard ``federalize'' the Guard) for 
domestic purposes. As noted above, the Act already permits the 
President to use active duty military forces for emergency response 
operations including debris removal and road clearance; search and 
rescue; emergency medical care and shelter; provision of food, water 
and other essential needs; dissemination of public information and 
assistance regarding health and safety measures; and the provision of 
technical advice to state and local governments on disaster management 
and control. (See CRS Report Federal Act Disaster Assistance: 
Presidential Declarations, Eligible Activities, and Funding). Since the 
Act authority does not constitute an exception to the Posse Cornitatus 
Act, however, active duty military forces cannot be used for law 
enforcement purposes unless circumstances permit the President to 
independently invoke the Insurrection Act. Similarly, the President 
lacked authority to federalize the National Guard unless he was doing 
so under the Insurrection Act to suppress an ``insurrection, domestic 
violence, combination, or conspiracy. . .'' U.S.C. 333.
    Section 511 of the House-passed version of the 2007 NDAA would have 
delegated authority to the President to involuntarily seize control of 
the National Guard in the event of any ``serious natural or disaster, 
accident or catastrophe''. The effect of Section 511 would have been to 
authorize the President to involuntarily take control of the Guard for 
emergency response purposes but not for law enforcement operations 
unless circumstances independently justified the President's invocation 
of the Insurrection Act.
    As the 2007 NDAA went to conference, the National Governors 
Association (NGA) sent letters to the ranking majority and minority 
members of the U.S. Senate and House of Representatives and to the 
Secretary of Defense (see attached August 6 and 3 1,2006 letters) 
protesting the provisions of Section 511. The governors noted that 
Section 511 and similar provisions in the Senate bill would represent 
``a dramatic expansion of federal authority during natural disasters 
that could cause confusion in the command-and-control of the National 
Guard and interfere with states' ability to respond to natural 
disasters within their borders''. They reiterated that any such 
fundamental change in law should be considered only in consultation and 
coordination with the governors and ``The role of the Guard in the 
states and to the nation as a whole is too important to have major 
policy decisions made without full debate and input from the governors 
throughout the policy process.''
    In conference, the chairs dropped the House version (Section 511) 
but substituted an even broader provision that simultaneously amended 
the federal Insurrection Act and authorized the President to take 
control of the Guard in response to any ``natural disaster, epidemic or 
other serious public emergency, terrorist attack or incident, or other 
condition in any State or possession of the United States. . . .'' 
Because this was done under an expansion of the President's 
Insurrection Act powers, military forces operating at the President's 
direction in such circumstances are not subject to the Posse Comitatus 
Act and can be used to force compliance with laws by any rules for use 
of lethal force (RUF) or rules of engagement (ROE) authorized by the 
President or those acting under his delegated authority.
    The conference report was agreed to in the House on the same day as 
its filing (September 29, 2006) and in the Senate the following day 
(September 30,2006).
    Without any hearing or consultation with the governors and without 
any articulation or justification of need, Section 1076 of the 2007 
NDAA changed more than 100 years of well-established and carefully 
balanced state--federal and civil -military relationships. I 
respectfully suggest that when laws are changed for the better, 
everyone who supports the change claims credit for its passage. These 
provisions, however, have no ``DNA'', and no acknowledged author. In 
fact, state officials have been unable to identify anyone who will even 
acknowledge having reviewed or coordinated on the changes before they 
were inserted into the conference report.
    As written, the Act does not require the President to contact, 
confer or collaborate in any way with a governor before seizing control 
of a state's National Guard forces. It requires only notice to Congress 
that the President has taken the action but no explanation, 
justification or consent of congress is required.
    If these provisions had been in effect during the 2005 Hurricane 
Katrina response, the President could have unilaterally seized control 
of the National Guard forces of all 54 states, territories and the 
District of Columbia as they were engaged in ongoing recovery 
operations in the Gulf Coast states. He could have done so by a 
unilateral determination that state authorities were incapable of 
preventing public violence and maintaining public order. Ironically, 
the President's unilateral assumption of control over the Guard might 
well be the very act that would preclude a state from having the 
resources to maintain or restore public order.
    In the event of such a federal take-over, governors of supporting 
state forces would be unable to withdraw their units or exercise any 
control or influence over their personnel even if there was an 
unexpected emergency in their home state.
    The Adjutants General Association of the United States (AGAUS) 
urges Congress to restore the historic balance of state and federal 
interests by swiftly passing HR 869. AGAUS believes that, with the 
exception of two circumstances noted below, governors should control 
any and all domestic use of military force within their state 
(regardless of whether the domestically employed forces are Active, 
Reserve or National Guard forces) and should retain control over their 
own National Guard forces wherever and whenever they are employed 
within the United States or its territories or the District of 
Columbia. The two exceptions are: (1) if National Guard lethal force is 
required under the direction of national command authorities to repel 
an attack or invasion against the United States or (2) if National 
Guard units or personnel are being used in state status to resist a 
order of the judicial, legislative or executive branches of the federal 
government the school desegregation and civil rights cases of 1957-
1965).

              Interference with Essential State Interests

    The National Guard is the only organized, trained and equipped 
military force a governor can call upon to restore or sustain public 
safety in the event of a state or local emergency, including 
enforcement of state declarations of martial law (see, for example, RCW 
38.08.030, authorizing the governor's ``Proclamation of complete or 
limited martial With the exception of the two circumstances noted 
above, the domestic use of military force within any state without the 
governor's consent, supervision and ultimate control and the imposition 
of federal control over a state's National Guard units or personnel for 
domestic purposes without the governor's prior knowledge and consent 
are of state sovereignty and deprive states of the means of carrying 
out the core of state government, including protection of a state's 
citizens under the state's existing laws or as part of a state's 
imposition and enforcement of its own martial law provisions.
    Further, imposing Presidential control over the National Guard for 
domestic purposes without notice to the governor and without the 
governor's consent negates the unity of local-state-federal effort 
needed in times of domestic peril and would undermine the speed and 
efficiency with which the National Guard responds under the Governor's 
control to in-state emergencies and in support of other states through 
state-to-state mutual aid agreements such as the Emergency Management 
Assistance Compact (EMAC)

     Federal Plans for Implementing Expanded Martial Law Authority

    US Northern Command (USNORTHCOM) has been engaged for some time in 
deliberative planning for implementation of Section 1076 of the 2007 
National Defense Authorization Act (the NDAA was effective October 
17,2006). The formal NORTHCOM 2502-05 was approved by Secretary of 
Defense Gates on March 15,2007. The final approved plan states ``This 
document is classified UNCLASSIFIED to ensure ease of use by both 
military and interagency organizations and personnel whose official 
duties require specific knowledge of this plan, including those 
required to develop supporting plans. Information in USNORTHCOM 2502 
may be disseminated to all interagency, National Guard Bureau, federal, 
tribal, state and local governments.''
    Although the 2007 NDAA provisions could be used to compel National 
Guard forces to engage in civil disturbance operations under federal 
control, states have had no notice of the development of these federal 
operational plans nor have governors or their Adjutants General had any 
opportunity to present their concerns or to synchronize their state 
plans during the development and coordination of the USNORTHCOM plan.
    The UNCLASSIFIED plan I have seen says National Guard forces 
conducting civil disturbance operations in the affected [both National 
Guard forces from the affected or supported state and National Guard 
forces from other supporting states operating therein] ``will likely be 
federalized upon execution of the plan. Further, the plan requires each 
state's National Guard Joint Forces Headquarters to develop the very 
plans under which the federal government would assume control over the 
state's National Guard forces.
    One key USNORTHCOM planning assumption is that the President will 
invoke the new Martial Law powers if he concludes state or local 
authorities lack the capability or the will to maintain order. This 
highly subjective operational standard has been developed without any 
notice, consultation or collaboration with the governors of the several 
states and territories.

  All States and Territories and Numerous National Associations Urge 
                    Congress to swiftly enact HR 869

    The Adjutants General Association of the U.S. (AGAUS) joins the 
following institutions and national organizations in urging Congress to 
repeal Section 1076 of the 2007 NDAA through swift enactment of HR 869: 
the Washington State Legislature, the National Governors Association 
(NGA), the National Lieutenant Governors Association (NLGA), the 
National Conference of State Legislatures (NCSL), the Enlisted 
Association of the National Guard of the United States (EANGUS), the 
National Sheriffs Association (NSA), the National Emergency Management 
Association (NEMA) and the International Association of Emergency 
Managers (IAEM).

                               Conclusion

    It is imperative that we have unity of effort at all levels--local, 
state and federal--when responding to domestic emergencies and 
disasters. Section 1076 of the 2007 National Defense Authorization Act 
is a hastily conceived and ill-advised step backward. It openly invites 
disharmony, confusion and the fracturing of what should be a united 
effort at the very time when states and territories need federal 
assistance--not a federal take over--in responding to state and local 
emergencies.
    Thank you for this opportunity to express the concerns of the State 
of Washington, the Adjutants General Association of the United States 
and the other national associations referenced herein.

    Mr. Cuellar. Yes, sir.
    Thank you, again, very much for your time.
    At this time, I would recognize General Pineda to summarize 
your statement for 5 minutes.

STATEMENT OF MAJGEN TONY PINEDA, NATIONAL COMMANDER, CIVIL AIR 
                             PATROL

    General Pineda. Good morning, Mr. Chairman, and members of 
the committee. I am pleased to have this opportunity to testify 
on behalf of the Civil Air Patrol on the use of the Civil Air 
Patrol assets for humanitarian assistance, aerial 
reconnaissance, search and rescue, and emergency services. I 
would like to assure you that CAP is the perfect fit to support 
this effort because of the skill, expertise and experience this 
organization brings to the table.
    It is important for you to understand how CAP is different 
from other volunteer public service organizations. We started, 
in World War II, flying antisubmarine missions with light 
aircraft off the Atlantic coast when the military was unable to 
do that mission. It was a dangerous and essential national 
mission that we did well. We continued that tradition with 
service to this very day. We have over 500 light aircraft and 
professionally trained aircrews on alert and ready to respond. 
The capability is supported by vast communications of command 
network ground teams capable of conducting emergency missions 
and thousands of trained professional volunteers.
    These assets are located in hundreds of communities, towns 
and cities in every single State. We utilize modern 
technologies, including satellite-ransmitted aerial photos and 
hyper-spectral imaging, and can quickly take on new 
technologies. No other volunteer organization in the United 
States can provide that kind of capability.
    Mr. Chairman, the Civil Air Patrol is ready to help now. 
Emergency services is our niche. Civil Air Patrol conducts 95 
percent of all inland search and rescues in the United States 
as tasked by the Air Force Rescue Coordination Center at 
Tyndall Air Force Base in Florida and other agencies. All Air 
Force<dagger>assigned missions are coordinated to the Civil Air 
Patrol National Operations Center at Maxwell Air Force Base in 
Alabama. Civil Air Patrol also provides disaster relief, 
support to local, State and national disaster relief 
organizations, which may include transporting 
time<dagger>sensitive medical materials, blood products and 
body tissues. CAP is also equipped to provide near-realtime 
damage assessment, light transport, communication support, and 
low-altitude route surveys for the U.S. Air Force. We also 
assist agencies in the war on drugs. Finally, we maintain the 
most extensive emergency communications network in the Nation 
with over 16,000 radios across the Nation.
    The past few years have highlighted the phenomenal bravery, 
sacrifice and patriotism of the Civil Air Patrol's everyday 
heroes. Our rapid response to Hurricanes Katrina, Ophelia, Rita 
and Wilma was the organization's most extensive ever. During 
the relief efforts, Civil Air Patrol deployed 1,800 members 
from 17 States who served over 50,000 volunteer hours; flew 
over 1,000 air missions; and logged over 2,000 flight hours; 
provided more than 2,000 time<dagger>critical aerial images of 
the affected areas; distributed 30,000 pounds of relief 
supplies; ground teams visited over 4,000 homes, contacting 
over 8,500 residents.
    CAP aviators and other members continue to support the 
country by taking part in several vital exercises at the 
request of the U.S. Air Force. As a result, Major General-Scott 
Mayes, a former First Air Force commander, stated, ``CAP has 
become an important partner in our homeland defense mission. 
Because of the cooperation between CAP and NORAD, we are better 
able to meet our Nation's requirements for rapid response to 
any threat to our sovereignty.''
    That same level of CAP commitment and cooperation continued 
last summer. At the request of the Chief of Staff of the Air 
Force, CAP commenced increased training in Arizona in the 
anticipation of follow-on taskings. These mission rehearsals 
began on the 17th of July and continued for about 21 days, and 
the exercise was involving the reconnaissance and rescue of 
citizens on the border in Arizona.
    As CAP celebrates 65 years of service, it prepares for 
challenges yet to come in an increasingly complicated world. 
Whatever dangers or opportunities lay ahead, CAP's volunteers 
are poised to heed the call with the same patriotic spirit that 
has always distinguished CAP's missions for America. CAP is one 
team with no borders, and the one goal is to serve our country.
    Thank you, and I have some fact sheets of paper that I 
would like to give to your clerk, detailing some information 
about the Civil Air Patrol.
    [The statement of General Pineda follows:]

             Prepared Statement of MajGen Antonio J. Pineda

    Good afternoon Chairman and Members of the Committee. I am pleased 
to have this opportunity to testify on behalf of the Civil Air Patrol 
(CAP) on the use of CAP assets for humanitarian assistance, aerial 
reconnaissance, search and rescue, and emergency services. I would like 
to assure you CAP is the perfect fit to support this effort because of 
the skill, expertise, and experience this organization brings to the 
table.

History
    First, allow me to enlighten the rest of the members on who we are 
and what we do. Civil Air Patrol was founded in December 1941, during a 
time of uncertainty and danger one week before the Japanese attack on 
Pearl Harbor that hurled America into global conflict. In America's 
time of wartime need, CAP's fledgling organization of 150,000 volunteer 
citizen aviators halted the deadly, destructive designs of Germany's 
Nazi U-boats in America's coastal waters. Under the jurisdiction of the 
Army Air Forces, CAP pilots flew more than one-half million hours, were 
credited with sinking two enemy submarines and rescued hundreds of 
crash survivors during World War II. On July 1, 1946, President Harry 
Truman established CAP as a federally chartered benevolent civilian 
corporation, and Congress passed Public Law 557 on May 26, 1948, making 
CAP the auxiliary of the new U.S. Air Force. CAP was and is still today 
charged with three primary missions--aerospace education, cadet 
programs and emergency services. I will focus my comments today on the 
emergency services mission.
    It is important for you to understand why CAP is a different from 
other volunteer public service organizations. We started in World War 
II flying antisubmarine missions with light aircraft off the Atlantic 
coast when the military was unable to do that mission. It was a 
dangerous and essential national mission that we did well. We continue 
that tradition of service to this very day. We have over 500 light 
aircraft and professional, trained aircrews, on alert and ready to 
respond. That capability is supported by a vast communications and 
command network, ground teams capable of conducting emergency missions 
and thousands of trained volunteers. These assets are located in 
hundreds of communities, towns and cities in every state. We utilize 
modern technologies including satellite transmitted aerial photos and 
hyper-spectral imaging and can quickly take on new technologies. No 
other volunteer organization in the United States can provide that kind 
of capability. Mr. Chairman, we are ready to help now.
    CAP operates as an all-volunteer civilian community asset and the 
auxiliary of the U.S. Air Force with cover 55,000 members. It includes 
eight geographic regions consisting of 52 wings, one in each of the 50 
states, Puerto Rico and the District of Columbia for a total number of 
units that exceeds 1,500. CAP operates one of the largest fleets of 
single-engine piston aircraft in the world with 530 aircraft and our 
volunteer members fly nearly 110,000 hours each year. Additionally, CAP 
maintains a fleet of nearly 1,000 emergency services vehicles for 
training and mission support.
    Emergency Services is our niche. CAP conducts 95 percent of all 
inland search and rescue in the United States, as tasked by the Air 
Force Rescue Coordination Center at Langley Air Force Base, Virginia, 
and other agencies. All Air Force-assigned missions are coordinated 
through the CAP National Operations Center at Maxwell Air Force Base, 
Alabama. We are called upon to perform aerial reconnaissance for 
homeland security. CAP also provides disaster-relief support to local, 
state, and national disaster relief organizations which may include 
transporting time-sensitive medical materials, blood products, and body 
tissues. CAP is also equipped to provide near real time damage 
assessment, light transport, communications support, and low-altitude 
route surveys for the U.S. Air Force. We also assist federal agencies 
in the war on drugs. Finally, we maintain the most extensive emergency 
communications network in the nation with over 16,000 radios.
    As has been a tradition for over 65 years, CAP pilots and aircraft 
are highly valued for their ability to fly low and slow making them the 
ideal observation platform. Federal and state agencies have regularly 
called on CAP pilots and observers to take vital damage assessment 
photos or search for crash victims. CAP aircrews are an ideal resource 
throughout the country because of their experience in search and rescue 
and their ability to provide aerial imagery in a cost-effective manner. 
Its customers, especially the U.S. military, pay a very small fee for 
the outstanding service CAP provides. When the U.S. Air Force assigns a 
mission to CAP, it generally costs less than $120 per flying hour.
    The past few years have highlighted the phenomenal bravery, 
sacrifice and patriotism of CAP's Everyday Heroes. Our rapid response 
to Hurricanes Katrina, Ophelia, Rita and Wilma was the organization's 
most extensive ever. During the relief efforts CAP deployed 1,800 
members from 17 states who served over 50,000 volunteer hours; flew 
over 1,000 air missions and logged over 2,000 flight hours; provided 
more than 2,000 time-critical aerial images of the affected areas; 
distributed 30,000 pounds of relief supplies; ground teams visited over 
4,000 homes, contacting over 8,500 residents. CAP's great work didn't 
stop with hurricane relief efforts. Additionally, members carried out 
over 2,500 search and rescue missions and saved 73 lives. In 
conjunction with many other organizations, CAP helped reduce illegal 
drug activity by more than $637 million. Whether searching for a 
missing hunter in Oregon, seeking missing or overdue helicopters in 
Louisiana and Arkansas, providing flood relief in Pennsylvania or 
assessing tornado damage in Kentucky, CAP members were there performing 
missions for America.
    CAP aviators and other members continue to support U.S. homeland 
security taking part in several vital exercises at the request of the 
U.S. Air Force. As a result, Maj. Gen. M. Scott Mayes, former 1st Air 
Force Commander, stated, ``CAP has become an important partner in our 
homeland defense mission. Because of the cooperation between CAP and 
NORAD, we're better able to meet our nation's requirements for rapid 
response to any threat to our air sovereignty. This kind of teamwork is 
vital to our rapid-response capability. Together, when we're called 
upon, we'll be ready to act, and act fast.''

The Arizona Border Mission
    That same level of CAP commitment and cooperation continued last 
summer. At the request of the CSAF, CAP commenced increased training in 
Arizona in the anticipation of follow-on taskings. These mission 
rehearsals began on 17 July of 2006. CAP is training in Search and 
Rescue, Aerial Reconnaissance and Radio Relay. In the course of these 
training missions, if CAP aircrew members observed individuals in 
distress, appropriate authorities were notified. Concurrently, USAF 
staff members are actively developing a Concept of Operations so that 
we can smoothly transition to support of the Border Patrol, should the 
Department of Defense receive a request for assistance. The bottom line 
need was to protect lives along the border.

Conclusion
    As CAP celebrates 65 years of service, it prepares for challenges 
yet to come in an increasingly complicated world. Whatever dangers or 
opportunities lay ahead, CAP's volunteers are poised to heed the call 
with the same patriotic spirit that has always distinguished CAP's 
missions for America. In that light, CAP is the right fit for this 
mission and remains committed to assisting border security operations 
if called upon to continue or expand its role. However, several issues 
that may limit our effectiveness must be addressed. First, as various 
federal, state, or local agencies come together to work on a mission 
such as this one the overall effectiveness and results of the total 
effort may be enhanced by placing one agency in a position of 
overarching authority. This lead agency could then most efficiently and 
effectively orchestrate and direct all operational and support activity 
to accomplish the mission. Secondly, since CAP is a private non-profit 
corporation and the Air Force Auxiliary, should ``Posse Comitatus'' 
apply to operations such as this one? CAP stands ready to address and 
assist in resolving these and any other issues if you wish to continue 
utilizing us in this role.
    I would like to extend my sincere thanks to the members of this 
committee for your strong and devoted support of Civil Air Patrol. As 
National Commander of this outstanding group of citizen volunteers, I 
encourage you to recognize the fact that CAP continues to provide an 
irreplaceable, professional and highly cost-effective force multiplier 
to America. Through the voluntary public service of more than 55,000 
members, CAP makes a priceless and positive impact in communities by 
performing disaster relief and search & rescue missions, and also by 
providing aerospace education and cadet programs. CAP serves as a 
guardian of the skies and a skilled resource on the ground, wherever 
the call and whatever the mission.

    Mr. Cuellar. Yes. Please, go ahead and submit that. Again, 
thank you for your testimony.
    At this time, I recognize Mr. Cannon, and if you could 
summarize your testimony to 5 minutes, we would appreciate it, 
and then we will go to Mr. Womack, and then we will go ahead 
and open the hearing up for questions. Thank you.

STATEMENT OF GLENN CANNON, ASSISTANT ADMINISTRATOR FOR DISASTER 
        OPERATIONS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Cannon. Mr. Chairman and distinguished members of the 
committee, thank you for inviting me to appear before you 
today. I look forward to working with this subcommittee and the 
entire Congress to continue the improvements to enhance the 
capabilities of the Department of Homeland Security and FEMA.
    Based on our experiences and lessons learned over the 
years, we are building a new FEMA and increasing our core 
capabilities to lead our Nation's all-hazard preparedness, 
protection, response, recovery and mitigation capabilities. We 
are implementing recommendations from the post-Katrina reviews 
and after-action reports and the Post-Katrina Emergency 
Management Reform Act of 2006.
    A recurring recommendation is the need to more fully 
integrate military capabilities into Federal disaster response 
activities. As a result, we are coordinating more closely with 
DOD and its components, the National Guard Bureau and the State 
National Guards. This morning, I want to highlight some of the 
joint activities we are talking with our military partners to 
approve overall disaster response capabilities.
    DOD plays a key role supporting FEMA by planning, 
coordinating and integrating defense support to civil 
authorities. This is the support provided by DOD in response to 
requests for disaster assistance. Under the National Response 
Plan, DOD supports all 15 emergency support functions. Such 
support can include commodity distributions, search and rescue, 
communications, evacuation, fuel distribution and power 
generation. This support is typically provided through the 
mission assignment process. Within DOD, NORTHCOM is responsible 
for military operations to support disaster response. DOD 
command and control elements are collocated at a disaster site 
with the principal Federal officer and the Federal coordinating 
officer.
    FEMA coordinates with DOD and the assistant secretary of 
defense for Homeland Defense level and with the Joint Staff 
through the Joint Director of Military Support. Among the DOD 
components we coordinate with, they are the following: U.S. 
Northern Command, Defense Logistics Agency, the U.S. Army Corps 
of Engineers, the National Geospatial-Intelligence Agency, the 
U.S. Transportation Command, the U.S. Pacific Command, the U.S. 
Southern Command, the Marine Corps Assistance Command and the 
National Guard Bureau.
    Some examples of our coordination include assignment of DOD 
liaison officers over at FEMA headquarters, assignment of 
Defense coordinating officers and Defense coordinating elements 
at our FEMA regions, details of DOD personnel to support FEMA's 
activities and logistics, operations, transportation, and 
communication. We have permanent FEMA personnel assigned to 
staff at NORTHCOM and the joint development of 44 prescripted 
mission assignments with DOD to provide functional disaster 
response support such as airlift, transportation, 
communications, debris removal, damage assessment, fuel 
distribution, and operational staging area support. Because of 
the success of this effort, we are developing additional 
pre<dagger>scripted mission assignments with other Federal 
agencies.
    FEMA participates routinely in DOD-sponsored exercises at 
the State and local and regional levels, such as NORTHCOM's 
table talk exercise program, the vigilant shield catastrophic 
disaster response exercises, the Ardent Sentry/Northern Edge 07 
exercise, and exercise to test and validate communications 
capabilities and interoperability. Similarly, DOD participates 
in the DHS top officials exercise series with FEMA-sponsored 
national and regional exercises and workshops, leveraging 
specialized expertise from the Defense Logistics Agency, the 
U.S. Army Corps of Engineers and the Marine Corps systems 
command and collaborating in the areas of training and 
catastrophic planning and cross-border emergency preparedness 
activities with Mexico and Canada.
    The National Guard Bureau and the State National Guard 
provide critical disaster response assistance to the States and 
to FEMA. We coordinate closely with them to ensure the 
synchronization of their capabilities with the disaster 
response mission. Also, a full-time Joint director or military 
support liaison officer with a National Guard background is 
assigned to FEMA to support day-to-day operations and 
coordination.
    Our coordination with the National Guard takes place in the 
field and at headquarters. FEMA's regional staff works closely 
with the State National Guard. FEMA headquarters' staff works 
closely with the National Guard Bureau. State requirements for 
National Guard support are normally filled through the 
Emergency Management Assistance Compact process. During the 
response to Hurricane Katrina, more than 50,000 National Guard 
troops were deployed through those EMAC requests.
    Some examples of our coordination with the National Guard 
include daily conference calls, the sharing of incident 
reports, assessments of continuity of operations, and 
participation in exercises and training. The Guard also 
supports homeland defense-and-disaster response with a number 
of their specialized capabilities.
    The Coast Guard is another critical DHS component with 
substantial disaster response capabilities as we saw during 
Katrina, the Coast Guard is also called upon to support mission 
assignments under the ten emergency support functions. To help 
ensure coordination, there are two Coast Guard liaisons 
assigned to FEMA headquarters who are there every day.
    DHS and FEMA rely on and appreciate the support of the 
Department of Defense, the National Guard Bureau and the State 
National Guard. We look forward to our continued close 
cooperation with and support from our military partners as we 
lead the effort to build a more effective national emergency 
management system to help protect the American public.
    Thank you for your time today, and I look forward to 
answering your questions.
    [The statement of Mr. Cannon follows:]

                 Prepared Statement of Glenn M. Cannon

Introduction
    Chairman Thompson, Subcommittee Chairman Cueller, Ranking Members 
King and Dent, and Members of the Committee, thank you for inviting me 
to appear before you today.
    I am Glenn M. Cannon, Assistant Administrator, Disaster Operations 
Directorate, FEMA. Let me start by saying that I look forward to 
working with this Subcommittee and the entire Congress to continue the 
improvements we are implementing to enhance the capabilities of the 
Department of Homeland Security (DHS) and the Federal Emergency 
Management Agency (FEMA). Based on our experiences and lessons learned 
over the years, we are working hard to reorganize and build a new FEMA 
to further improve our Nation's all-hazards preparedness, protection, 
response, recovery and mitigation systems and capabilities. We are 
taking the first steps in what will be a multi-year effort to 
significantly increase FEMA's core capabilities and capacity to better 
serve and protect our Nation and its citizens.
    FEMA learned significant lessons from the 2005 Hurricane Season. 
Following Hurricane Katrina, the White House issued a report entitled, 
``The Federal Response to Hurricane Katrina Lessons Learned'' in which 
several recommendations were included related to integrating the use of 
military capabilities in catastrophic disaster response. The report 
specifically stated that the Department of Defense (DOD) and DHS should 
jointly plan for the DOD's support of Federal response activities. The 
report also recommended that DOD and DHS plan and prepare for a 
significant DOD supporting role during a catastrophic event. It further 
stated that DOD's joint operational response doctrine is an integral 
part of the national effort and must be fully integrated into the 
national response at all levels of government and that DOD should have 
a contingency role and a requirement to assist DHS with expertise in 
logistics, planning, and total asset visibility. The White House Report 
stated that the National Response Plan (NRP) and its Catastrophic 
Incident Supplement (CIS) should specify the specific requirements for 
DOD resources based on the magnitude and type of catastrophic incident.
    More recently, the ``DHS Appropriations Act of 2007/Post-Katrina 
Emergency Management Reform Act of 2006,'' (Post-Katrina Act) 
articulated new expectations for FEMA, established new leadership 
responsibilities, brought an expanded scope of missions, and called for 
FEMA to undertake a broad range of activities involving preparedness, 
protection, response, recovery and mitigation both before and after 
terrorist events, natural and manmade disasters. The Post-Katrina Act 
contains provisions that set out new law, amend the Homeland Security 
Act (HSA), and amend the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (Stafford Act).
    Among the specific responsibilities assigned to FEMA in the Post-
Katrina Act are:
        <bullet> leading the nation's comprehensive emergency 
        management efforts (including protection) for all hazards, 
        including catastrophic incidents;
        <bullet> partnering with non-Federal entities to build a 
        national emergency management system;
        <bullet> developing Federal response capabilities;
        <bullet> integrating FEMA's comprehensive emergency management 
        responsibilities;
        <bullet> building robust regional offices to address regional 
        priorities;
        <bullet> using DHS resources under the Secretary's leadership;
        <bullet> building non-Federal emergency management 
        capabilities, including those involving communications; and
        <bullet> developing and coordinating the implementation of a 
        risk-based all hazards preparedness strategy that addresses the 
        unique needs of certain incidents.
    DOD has a key role supporting FEMA in many of these areas and in 
overall planning, coordinating, and integrating Defense Support to 
Civil Authorities (DSCA) with local, State, and Federal agencies. DSCA 
is DOD?s support, provided by its Federal military forces, DOD 
civilians, contract personnel, and DOD components, in response to 
requests for assistance. The DOD focus in domestic disaster response is 
on providing homeland defense, supporting civil operations, and 
cooperating in theater security activities designed to protect the 
American people and their way of life. FEMA?s partnership with DOD 
continues to evolve and the disaster response support DOD and its 
multiple components bring to FEMA is critical to enhancing our 
comprehensive preparedness, protection, response, recovery, and 
mitigation capabilities for dealing with all types of natural and man-
made hazards.
    It is my pleasure to highlight the multiple facets of coordination 
and cooperation between FEMA and its partners in DOD.

FEMA and DOD Coordination
    DHS/FEMA coordinates with DOD through the Assistant Secretary of 
Defense for Homeland Defense (ASD/HD), and specifically coordinates 
with the Joint Staff through the Joint Director of Military Support 
(JDOMS). The support from the Secretary of Defense and the DOD in 
preparing for all types of disasters is critical. Beneficial support is 
provided by different DOD components including:
        <bullet> US Northern Command (USNORTHCOM)
        <bullet> Defense Logistics Agency (DLA)
        <bullet> U S Army Corps of Engineers (USACE)
        <bullet> National Guard Bureau (NGB)
        <bullet> National Geospatial-Intelligence Agency (NGA)
        <bullet> US Transportation Command (USTRANSCOM)
        <bullet> US Pacific Command (USPACOM)
        <bullet> US Southern Command (SOUTHCOM)
        <bullet> Marine Corps Systems Command
    Collectively with DOD and the State National Guards, FEMA and its 
partners have learned many lessons from the response to Hurricane 
Katrina and many other disasters and are using these lessons to enhance 
overall coordination and cooperation to improve future disaster 
responses. Coordination has and continues to take place among all of 
these organizations in many different forms and forums such as the 
following:
    DOD assignment of liaison officers to FEMA Headquarters to 
represent JDOMS, USNORTHCOM, and the NGB. The liaisons help ensure 
effective coordination of activities, provide advice, prepare reports, 
and facilitate relationship building for more effective and timely 
DSCA;
    Two FEMA representatives are assigned permanently at USNORTHCOM to 
facilitate exchange of information and provide advice on FEMA programs 
and disaster response issues. FEMA and USNORTHCOM have been closely 
coordinating and cooperating in a number of areas including:
        <bullet> Routine video-teleconferences to facilitate 
        development of pre-scripted mission assignments and exchange 
        information;
        <bullet> Direct exchange of operational information and reports 
        between USNORTHCOM's Command Center and FEMA's National 
        Response Coordination Center (NRCC);
        <bullet> Detail of USNORTHCOM and USTRANSCOM planning personnel 
        to augment FEMA's planning staff and capabilities;
        <bullet> Coordination of activities of USNORTHCOM, FEMA's 
        Operation Planning Unit, and the DHS Incident Management 
        Planning Team (IMPT) to more fully synchronize and integrate 
        DOD and DHS/FEMA planning and response activities. A DOD staff 
        member is assigned to the DHS IMPT;
        FEMA and USNORTHCOM collaboration, with ASD/HD and JDOMS, to 
        develop Pre-Scripted Mission Assignments (PSMAs) to facilitate 
        DSCA for hurricanes and other disaster response. Thus far, 16 
        PSMAs have been pre-approved and coordinated between DOD and 
        FEMA with an additional 28 between FEMA and USACE. The PSMAs, 
        also to be incorporated into the 15 National Planning 
        Scenarios, include the following general support:
                <bullet> Rotary Wing Lift Support (Heavy and Medium 
                support)
                <bullet> Tactical and Strategic Transportation Support
                <bullet> Communications Support
                <bullet> First Responder Support
                <bullet> Emergency Route Clearance Support
                <bullet> Aerial Damage Assessment Support
                <bullet> Support in preparation of Temporary Housing 
                Sites
                <bullet> Mobilization Center Support
                <bullet> Operational Staging Area Support
                <bullet> Fuel Distribution Support
                <bullet> Rotary Wing Medical Evacuation Support
                <bullet> Temporary Medical Facilities Support
        <bullet> Support from USNORTHCOM in posting interagency data 
        elements by Emergency Support Functions on the DHS Homeland 
        Security Information Network (HSIN) to enhance the interagency 
        common operating picture. This facilitates preparation of 
        timely and authoritative information for the President and 
        senior officials;
        <bullet> FEMA and USNORTHCOM co-sponsorship of the annual 
        Federal Coordinating Officer (FCO) ? Defense Coordinating 
        Officer (DCO) Conference designed to maintain and enhance 
        civilian-military interaction and support of planning and 
        disaster response activities within each FEMA Regional Office;
        <bullet> Planning support from the Joint Interagency 
        Coordination Group (JIACG), USNORTHCOM's primary interagency 
        forum. The JIACG consists of approximately 60 interagency 
        Combatant Command, service component, and staff representatives 
        that support planning efforts at all levels related to such key 
        issues as the Emergency Management Assistance Compact (EMAC), 
        private sector engagement, critical infrastructure protection, 
        pandemic influenza planning, and engagement on interagency 
        coordination of cross border major disaster events response 
        activities. The JIACG interagency representatives also provide 
        ``reach-back'' capability to provide and receive information 
        from interagency partner organizations;
        <bullet> Participation by USNORTHCOM and its components in the 
        FEMA led New Madrid Seismic Zone Catastrophic Planning 
        Initiative and other catastrophic planning initiatives to 
        examine preparedness, response, and recovery measures at the 
        local, State and Federal levels;
        <bullet> Participation by USNORTHCOM in the Department of State 
        and FEMA-led interagency effort to develop an International 
        Assistance System Concept of Operations. This will establish, 
        within the National Response Plan framework, policies and 
        procedures to enhance management of international resources 
        provided to the US by concerned nations during disaster 
        response operations;
        <bullet> USNORTHCOM coordination with the National Emergency 
        Management Association (NEMA) and the EMAC representatives to 
        share information and gain a better understanding of planning 
        and operational response needs;
        <bullet> FEMA, EPA and USNORTHCOM coordination to implement an 
        interagency approach to Building Partnership Capacity in 
        emergency preparedness and response between the four US Border 
        States and six Mexican Border States and the Canadian border 
        provinces. These cross border preparedness efforts will 
        strengthen understanding and coordination of border municipal, 
        county and State response capabilities for hazardous materials, 
        natural disasters and potential man made events to protect our 
        citizens and support the trilateral Presidential Security and 
        Prosperity Partnership; and
        <bullet>Leadership visits, exercise cooperation, and exchange 
        of Operation Officers.
<bullet> Close coordination between FEMA and USACE to facilitate USACE 
support in conducting pre-and post-incident assessments of public works 
and infrastructure; providing engineering expertise; managing 
construction; and providing certain response commodities;
        <bullet> DOD component participation in FEMA's Senior Emergency 
        Support Function Leaders Group (ESFLG) Meetings, in which lead 
        Emergency Support Function (ESF) managers (and other 
        organizations with equities) convene to discuss roles and 
        responsibilities, update the National Response Plan, and 
        discuss disaster preparedness and response issues;
        <bullet> Maintenance of a list of DOD organizations that can 
        support FEMA in disaster response activities;
        <bullet> DOD assignment of Regional Defense Coordinating 
        Officers (DCOs) supported by Defense Coordinating Elements 
        (DCE) in FEMA's Regions to ensure military coordination at the 
        Regional level. All 10 FEMA Regions were staffed by Permanent 
        or Acting DCOs and support DCEs by June 1, 2006; and
        <bullet> DOD assignment of planners to support the FEMA 
        Headquarters in the areas of logistics, transportation, 
        medical, and communications and support the Gulf Coast Recovery 
        Office in the areas of logistics, transportation, medical, 
        communications, operations, and aviation during the 2006 
        Hurricane Season.
        <bullet> As the 2007 Hurricane Season approaches, FEMA's close 
        coordination of activities with DOD continues. Processes and 
        procedures continue to be reviewed and refined and there is 
        ongoing coordination of training, disaster response planning, 
        and exercise activities as well as ongoing joint coordination 
        with the States and staff exchanges.

National Guard and National Guard Bureau: Federal and State Military 
Integration
    The National Guard is the organized militia reserved to the States 
by the Constitution. In peacetime, the National Guard is commanded by 
the governor of each respective State or territory. When ordered to 
Federal active duty for mobilization or for emergencies, units of the 
National Guard are under the control of the appropriate service 
secretary. The FY04 National Defense Authorization Act amended Title 32 
to make it possible for a National Guard officer to be in command of 
Federal (Active Duty) and State (National Guard Title 32 and State 
Active Duty) forces simultaneously.
    Generally, there are two levels of coordination between FEMA and 
the National Guard. FEMA coordination with the National Guard at the 
State level routinely takes place between FEMA Regional staff and State 
officials. In fact, 14 of The Adjutant Generals (TAG), the leadership 
of the National Guard are also State Emergency Management Officials 
(SEMOs). At the national level, FEMA coordinates with the National 
Guard Bureau (NGB) which routinely interacts with all States and 
Territories on DSCA and Homeland Security matters to coordinate 
providing national level support. FEMA can request the NGB to assess 
National Guard capabilities but does not generally use the Mission 
Assignment (MA) process to directly leverage National Guard 
capabilities. To do so would require that DOD place the National Guard 
under Title 10 status. State requirements for National Guard support 
are normally filled under NEMA EMAC processes. Also, the NGB can assist 
States in identifying National Guard capabilities available to meet 
EMAC requirements. During Hurricane Katrina, EMAC requests for 
assistance were executed using National Guardsmen.
    FEMA continues to coordinate and cooperate with the various States' 
TAGs, as well as with the NGB, in a number of disaster response-related 
areas to include improving situational awareness, communications 
planning, force package planning, and overall mission and disaster 
response planning. In addition to a full-time JDOMS Liaison Officer 
with a National Guard background, being assigned to FEMA's Disaster 
Operations Directorate for day-to-day operations, during actual 
disaster response operations response operations, FEMA engages closely 
with both the State NGs and the NGB to ensure close coordination and 
synchronization of disaster response activities.
    At the State level, there are approximately 14 TAGs who serve as 
SEMOs or act as the Director of Homeland Security within a given State. 
Even if the TAGS are not SEMOs, FEMA coordinates routinely at the 
regional level with the National Guard, under State control, to ensure 
disaster response efforts are coordinated.
    We have taken several actions to improve daily coordination between 
FEMA and the NGB, including:
<bullet> Convening daily conference calls to review current operational 
activities between NRCC/Watch, NGB/Joint Operations Center (JOC), and 
USNORTHCOM's Command Center;
<bullet> Sharing daily informational reports between the NGB JOC and 
FEMA's 24/7 Watch Team;
<bullet> Routinely sharing Incident Reports and Executive Summaries 
with the NGB;
<bullet> Sharing special event planning information and situational 
awareness for National Special Security Events (NSSE) and other special 
events;
<bullet> Sharing information on special capabilities like special 
National Guard WMD capabilities, e.g., Weapons of Mass Destruction 
Civil Support Teams and Chemical, Biological, Radiological, Nuclear and 
Explosives (CBRNE) Emergency Response Force Packages;
<bullet> Participating with the NGB and TAGs in Hurricane Planning 
Conferences, exercises, meetings, and other coordination activities;
    More specifically, the NG can support homeland defense and disaster 
response in several different ways:

<bullet> National Guard Reaction Force (NGRF)
    NGRFs are traditional units that are pre-designated for quick 
response on a rotating basis. The goal is a trained and ready NG force 
available to each State's governor on short notice, capable of 
responding in support of local and State governments and, when 
required, DOD.

<bullet> Critical Infrastructure Program--Mission Assurance Assessment
    Program designed to educate civilian agencies in basic force 
protection and emergency response; develop relationships between first 
responders, owners of critical infrastructure, and NG planners in the 
States.

<bullet> WMD Civil Support Teams (CST)
    Highly skilled, full-time teams, established to provide specialized 
expertise and technical assistance to an incident commander to assess, 
assist, advise, and facilitate follow-on forces. State Governors, 
through their respective TAGs, have operational command and control of 
the teams. NGB provides logistical support, standardized operational 
procedures, and operational coordination to facilitate the employment 
of the teams.

<bullet> CBRNE Enhanced Response Force Package (CERFP)
    Designed to provide a regional capability to locate and extract 
victims from a contaminated environment, perform medical triage and 
treatment, and conduct personnel decontamination in response to a WMD 
event. Each task force works in coordination with USNORTHCOM, USPACOM 
and other military forces and commands as part of the overall national 
response of local, State and Federal assets. Each CERFP has a regional 
responsibility as well as the capability to respond to major CBRNE 
incidents anywhere within the US or worldwide. This capability augments 
the CST and provides a task force-oriented structure that will respond 
to an incident on short notice.

<bullet> NSSE
    The NGB Joint Intelligence Division, in coordination with the Joint 
Force Headquarters-State intelligence offices, provides support to each 
NSSE. Support missions included traffic control-point operations, a 
civil disturbance reaction force, aviation and medical evacuation, 
chemical detection and crowd screening.

<bullet> NG Joint Force Headquarters-State (JFHQ-State)
    A JFHQ-State has been established in 54 States and territories to 
provide command and control links for all NG forces. The JFHQ-State is 
responsible for fielding one or more Joint Task Forces (JTF) command 
elements that can assume tactical control of military units that are 
ordered to respond to a contingency operation within a State and would 
provide joint reception, staging, onward movement and integration of 
inbound forces. If ordered to active duty, the JFHQ-State can act as a 
subordinate command and control headquarters for USNORTHCOM or, in the 
case of Hawaii or Guam, USPACOM.

<bullet> JTF-State
    A JTF-State may be formed under the JFHQ-State to maintain command 
and control of NG forces. A JTF-State includes a JTF command element 
that will work closely with the incident commander to determine if 
additional NG or active duty DOD resources are required and assists in 
their safe and effective employment. JTF-State Commanders receive 
formal training which includes NIMS and Incident Command System 
concepts.
    The NGB is represented on USNORTHCOM's JIACG along with 
representatives from other DOD components and non-DOD organizations to 
help coordinate and refine disaster response roles and capabilities. 
NGB works closely with USNORTHCOM to plan for, exercise, develop, and 
refine capabilities to respond to a domestic incident. Both 
organizations, as needed by the affected State, will work closely 
together to integrate resources. Through mutual aid agreements, 
National Guard forces can provide critical security work, support 
civilian law enforcement, food, water, medicine, shelter, 
transportation, vital communications, and all of the other emergency 
support functions in support of FEMA.
    Another example of the strong working relationship between FEMA and 
NGB is the Memorandum of Understanding between the two organizations 
that was signed October 1, 2006. This agreement allows FEMA to leverage 
NGB capabilities to assist in Continuity of Operations Planning site 
vulnerability assessments for emergency preparedness, contingency 
operations planning, and situational awareness.

<bullet> Training and Exercises:
    FEMA and DOD jointly participate in a variety of training and 
exercise activities with varying scenarios designed to improve disaster 
response capabilities. Many of these take place at the State, local, 
and regional levels. USNORTHCOM's Table Top Exercise Program hosts 
Table Top Exercises (TTX) that FEMA participates in that specifically 
relate to integration of USNORTHCOM and the NGB with the NRP/
Interagency efforts to facilitate domestic disaster response. A recent 
TTX objective was to examine and lay the foundation for potential 
deployment and employment of DOD Unmanned Aerial Systems in a DSCA 
role.
    In another example of joint exercise activity, FEMA and USNORTHCOM 
exercised catastrophic disaster response during Vigilant Shield 07, an 
exercise focusing on a nuclear weapons accident and a terrorist event. 
FEMA is participating in DOD's upcoming Ardent Sentry-Northern Edge 07 
Exercise featuring a hurricane and terrorism response scenario. FEMA 
will also participate in DOD's Vigilant Shield 08 exercise. US Army 
North (US ARNORTH) will participate in Exercise Ardent Sentry 2007 by 
deploying their entire Operational Command Post in a hurricane response 
exercise. The exercises are normally synchronized with local and State 
responses, involve the interagency community and NG participation, and 
demonstrate USNORTHCOM's participation and capabilities in overall 
Federal disaster response. FEMA routinely coordinates with DOD in the 
Top Officials Exercise series and in communications exercises such as 
the Defense Interoperability Communications Exercise and Joint User 
Interoperability Communications Exercises to test and validate 
communications capabilities and interoperability between the different 
levels of government and the emergency management community, including 
DOD.
    In the area of training, DOD trains Emergency Preparedness Liaisons 
Officers (EPLO) in all of the DOD components in the NIMS/Incident 
Command System. Also, FEMA and the US ARNORTH have refocused the DSCA 
course to now include FCOs and DCOs to further strengthen the military 
and civilian understanding of the important disaster response roles and 
responsibilities. USNORTHCOM is continuing training to respond to 
requests for assistance from the NRP Primary Agencies in preparation 
for the 2007 Hurricane Season.
    Another example of DOD education and training related to disaster 
preparedness and response can be found at The Industrial College of the 
Armed Forces (ICAF) at the National Defense University (NDU). ICAF 
provides elective courses in emergency management response operations 
and managing complex disaster response operations for future DOD 
leaders.
    In addition, the NDU Interagency Transformation, Education and 
Analysis Program and the School for National Security Senior Executives 
faculty members are developing domestic disaster management course 
modules as part of the national security professional development 
program. FEMA enrolls students in these classes and is often requested 
to provide briefings and updates. FEMA also participates in disaster 
response-related activities at the Army and Navy War Colleges.

Logistics Coordination and Support:
    FEMA is working hard to develop a more highly disciplined, agile, 
and sophisticated logistics organization and system to better support 
disaster response operations. The new logistics organization will be 
one that is more proactive and couples 21st century technology and a 
professional workforce with strategic public and private partnerships. 
Achieving total system integrity, visibility, and accountability over 
select disaster resources will be emphasized. FEMA is coordinating 
closely with DOD in many aspects of the development of an improved 
national logistics system.
    A key partner in this relationship is the DLA. The relationship 
between DLA and FEMA is a strong one, founded on close collaboration 
and a regular dialogue.  The mechanisms that DLA has implemented to 
support FEMA, including the ability to closely track materiel in-
transit to a disaster site, have been developed because of that close 
collaboration and dialogue.
    FEMA and DLA signed an Interagency Agreement (IAA) in March 2006. 
This agreement helped streamline DLA support and increase DLA's close 
supportive relationship to FEMA's logistics efforts. In the past year, 
the relationship has evolved from support to disaster response, to 
proactive logistical and planning support, both before an event occurs 
and during the response efforts. DLA's efforts are focused primarily on 
supporting food and bulk fuel requirements. FEMA is using the FEMA-DLA 
IAA for vendor management/stockage of meals ready to eat (MRE) through 
the Defense Supply Center in Philadelphia. DLA has also established 
alternative commercial feeding options that FEMA can utilize in lieu of 
MREs. Fuel support is being provided through the Defense Energy Support 
Center (DESC). The DLA IAA can also be used for other DLA-managed 
commodities if required.
    Similarly, FEMA signed an IAA in July 2006 with the Marine Corps 
Systems Command to support the Pre-positioned Equipment Program (PEP). 
PEP consists of standardized equipment pods with equipment such as 
personal protective, decontamination, detection, technical search and 
rescue, law enforcement, medical, interoperable communications and 
other emergency response equipment that can be deployed to support 
State and local governments in responding to a major chemical, 
biological, radiological, nuclear, explosives or natural hazard event. 
Logistical support in the IAA includes operational management of PEP, 
including locations, equipment sets, and personnel.

DHS/US Coast Guard Role
    The U.S. Coast Guard is one of the five armed services as outlined 
in 14 U.S.C. Sec. 1 which states: ``The Coast Guard as established 
January 28, 1915, shall be a military service and a branch of the armed 
forces of the United States at all times.'' The Coast Guard was placed 
under the Department of Homeland Security DHSon February 25, 2003 where 
it executes a variety of missions including search and rescue, maritime 
law enforcement, and defense readiness. However, the Coast Guard also 
shoulders substantial disaster response capabilities and an expanded 
role in the NRP. Coast Guard support is provided directly to DHS and 
FEMA during an emergency, with Coast Guard response and incident 
management personnel integrating directly into the DHS/FEMA incident 
management organization established for a specific incident. Under the 
old Federal Response Plan, the Coast Guard generally played a role in 
only two support functions; Emergency Support Function (ESF) 1 and ESF 
10. However, with the broader approach under the NRP, and the 
implementation of Pre-scripted Mission Assignments, the Coast Guard can 
be called upon to provide support in 9 separate ESFs across 20 possible 
Mission Assignments areas. To ensure close coordination of Coast Guard 
and FEMA planning and disaster response operations, two Coast Guard 
liaisons are assigned to FEMA Headquarters. In addition, the Coast 
Guard has trained a number of Joint Field Office (JFO) Support Teams to 
assist FEMA during an incident. These Coast Guard JFO teams perform the 
dual responsibilities of representing Coast Guard interests during an 
incident while providing support to the overall Federal response.
    The creation of DHS brought Coast Guard and FEMA together for the 
first time into the same department. This has led to steadily 
increasing cooperation between the two agencies across a spectrum of 
preparedness planning, exercise and training, response issues, in 
identifying lessons learned, and in tracking and implementing remedial 
actions at the national level. In this cross-pollination, both agencies 
have been able to make a number of improvements to their respective 
contingency plans.
    For Hurricanes Katrina and Rita the Coast Guard performed work for 
FEMA under the authority of the Stafford Act. The Coast Guard conducted 
operations within the parameters established by FEMA's issued Mission 
Assignments and Task Orders. In addition, both agencies partnered 
extensively as key members of DHS's NIMS and NRP writing teams. The 
combined efforts helped to guide the creation of a consistent 
nationwide approach for all Federal, State, local and Tribal 
governments to work effectively and efficiently together to prepare 
for, prevent, respond to, and recover from domestic incidents, 
regardless of cause, size or complexity.
    The most significant adjustment in the Coast Guard role under the 
NRP relates to one of their cornerstone traditional missions. Working 
jointly, the US Coast Guard, NGB, and USNORTHCOM have helped coordinate 
development of larger scale search and rescue operations and a Joint 
Search and Rescue Center. ESF 9 is being revised to expand the 
participation of other Federal entities including DOD and the US Coast 
Guard.

NRP and Disaster Response
    The NRP provides the structures and mechanism for national-level 
policy and operational direction for domestic incident management. The 
NRP is always in effect; however, the implementation of NRP 
coordination mechanisms is flexible and scalable. The role of DOD in 
disaster response is similarly flexible and scalable. FEMA routinely 
coordinates with military components; however, many of DOD's resources 
may be needed only in the most severe or catastrophic disasters.
    The DOD has significant resources that may be made available to 
support the Federal response to terrorist attacks, major disasters or 
other emergencies. DOD is a supporting Agency for all 15 of the NRP's 
ESFs. DOD's USACE is the coordinating/primary agency for ESF # 3, 
Public Works and Engineering.
    The Secretary of Defense authorizes DSCA for domestic incidents as 
directed by the President or when consistent with military readiness 
operations, appropriate under the circumstances and the law. DOD 
resources are committed upon approval by the Secretary of Defense or 
upon order of the President. In a major disaster or catastrophic 
emergency, the coordination can grow to include the authorities of the 
Defense Production Act. The Secretary of Defense retains command of 
military forces providing civil support at all times.
    Within DOD, USNORTHCOM has responsibility for military operations 
within the continental United States in the event of a domestic 
incident. For such a response, DOD is set up to be largely independent 
in its operations; however, DOD resources still need to be coordinated 
within the overall Federal response under the NRP. Disaster response 
support required from DOD could range from commodity distribution to 
assisting with:
        <bullet> search and rescue,
        <bullet> communications,
        <bullet> evacuation,
        <bullet> security,
        <bullet> housing operations,
        <bullet> fuel distribution,
        <bullet> debris clearance,
        <bullet> medical care and medical evacuation,
        <bullet> power generation,
        <bullet> air support can be provided for movement of FEMA teams
    In most instances, DOD provides DSCA in response to ``Requests For 
Assistance'' from a lead or primary NRP Department or Agency. DSCA is 
typically provided on a reimbursable basis through MAs or PSMAs and is 
normally provided when local, State, and Federal resources are 
overwhelmed or need to be augmented and the requested support does not 
interfere with the Department's military readiness or operations. The 
supporting DOD combatant commander may deploy a JTF to command Federal 
(Title 10) military activities in support of the incident. When a JTF 
is established, consistent with operational requirements, its command 
and control element will be co-located with the Principal Federal 
Official (PFO) and FCO at a JFO. The collocation of the JTF command and 
control element does not replace the requirement for a Defense 
Coordination Officer and Defense Coordination Element (DCO/DCE) as part 
of the JFO Coordination staff. Each FEMA Region now has a DCO/DCE 
assigned to serve as the primary representative for FEMA to coordinate 
with DOD at the crisis scene.
    DHS and FEMA value the support of the Secretary of Defense and DOD 
components to facilitate and support Federal, State and local disaster 
response activities. In addition to direct support for disaster 
response, DOD possesses specialized testing, evaluation, and education 
facilities; training and exercise expertise; medical capabilities; and 
technology programs that provide important support to all levels of 
government in enhancing the Nation's disaster preparedness and response 
capabilities.

Conclusion
    Thank you for your time today, and I look forward to answering your 
questions.

    Mr. Cuellar. Thank you, Mr. Cannon, for your testimony.
    At this time, I will recognize Mr. Womack and ask you to 
please summarize your testimony to 5 minutes, and after that, 
we will start off with the questions.

   STATEMENT OF MIKE WOMACK, DIRECTOR, MISSISSIPPI EMERGENCY 
                       MANAGEMENT AGENCY.

    Mr. Womack. Thank you, Mr. Chairman.
    There are three key areas I would like to discuss. General 
Lowenberg very eloquently voiced the one that is of most 
concern to us today, and that deals with the authority to 
maintain and control the National Guard and that it should be 
restored to the Governors for their use during disasters and 
civil emergencies. He laid out most of the facts. What I would 
like to describe to you is the process we used for our response 
in Katrina and how we feel that the National Guard should be 
integrated in the overall unified command structure of a 
disaster response.
    The Governor, the adjutant general of the National Guard, 
our commissioner of public safety, our Federal coordinating 
officer, and my predecessor--the director of emergency 
management--constituted our unified command structure.
    The National Guard is the lead for ESF-3, which is the 
public works, but they are the primary in support for many of 
the emergency support functions. In that role, they were 
working under the direction of public safety, coordinated with 
local law enforcement when they performed their law enforcement 
missions. In their mission to provide commodity support and 
distribution, they were working with the civilian director of 
finance and administration and other State agencies.
    These remarks are not part of the written record. I am 
deviating from it because of General Lowenberg's remarks. I 
thought it would be beneficial to understand the way that it 
worked in Mississippi.
    The adjutant general initially commanded approximately 
4,000 to 5,000 soldiers and airmen. Then under EMAC, another 
15,000 to 20,000 troops and equipment were brought in. The 
chain of command was purely from the adjutant general down to 
other general officers through the EMAC forces, but in all 
cases, General Cross worked with civilian responders in 
coordinating their efforts, determining what the soldiers and 
airmen were both best used for and then allowing those missions 
that his troops could be used for to be performed.
    This process of Federalizing National Guard troops would 
make this extremely problematic. As soon as you Federalize the 
troops, then it is unclear exactly who they work for. Is the 
adjutant general then going to report to the NORTHCOM 
commander? Is the NORTHCOM commander going to be part of our 
unified command structure in the State of Mississippi? It was 
clear the Federal troops, active duty troops such as the 
Seabees and the airmen who are stationed down on the 
Mississippi gulf coast as well as the Coast Guard, were all 
integrated into this overall unified command structure.
    So I will just emphasize what General Lowenberg said on the 
issue of trying to restore the authority to the Governors. It 
is absolutely critical because you cannot maintain situational 
awareness from half a continent away. You have to have people 
on the ground who are able to be there, who understand how to 
deal with National Guard troops on a daily basis, who 
understand how to deal with State and local governments on a 
daily basis.
    The second issue that I would like to discuss has to do 
with EMAC. In order for us to deploy National Guard forces, we 
have to absolutely have EMAC authority, and it has to be 
funded. Right now, there is a shortfall in the fact that the 
authorization for EMAC funding through FEMA has not been 
provided. It is my understanding that there is $2.5 million in 
the supplemental conference report on mutual aid. It is 
absolutely critical. We could not have deployed the National 
Guard forces that we did, not to mention the approximately 
50,000 civilian mutual aid forces that were deployed during 
Katrina, without the coordination of the EMAC responsibilities 
that rest with NEMA, and that is funded through this $2.5 
million. So it is absolutely critical.
    The third thing I just would like to emphasize is the 
importance of the equipment for the National Guard. The troops 
cannot do their jobs if they do not have the equipment to do 
it. You cannot do debris removal if your engineer equipment is 
still in, you know, another country. So we have absolutely got 
to restore the funding to the National Guard to purchase and 
maintain the equipment to make sure they will be able to do 
their jobs for the next disaster.
    Thank you.
    [The statement of Mr. Womack follows:]

                   Prepared Statement of Mike Womack

Introduction
    Thank you Chairman Cuellar, Ranking Member Dent, Full Committee 
Chairman Thompson, and distinguished members of the Committee for 
allowing me the opportunity to provide you with a statement for the 
record on our nation's preparedness. I am Mike Womack, the Director of 
the Mississippi Emergency Management Agency. In my statement, I am 
representing the National Emergency Management Association (NEMA), 
whose members are the state directors of emergency management in the 
states, territories, and the District of Columbia. I bring more than 29 
years of experience in active and reserve military service, retiring in 
June 2001 as a Lieutenant Colonel from the Mississippi Army National 
Guard with extensive operations management background. I have served in 
numerous positions including Administrative Officer, Operations 
Officer, Intelligence Officer, Civil Affairs Officer and Chief of Staff 
of a 5,000-soldier armor brigade. My tenure with MEMA began in 2002 and 
I have served as Director of Response and Recovery and Deputy Director, 
leading up to my appointment as the Director in December 2006.
    I very much appreciate the opportunity to testify before your 
Committee today. The role of the military in disasters is a critical 
component of emergency operations planning and execution. Strong 
relationships and authorities are key ingredients to the success of any 
disaster. In Mississippi, the key to our ability to respond to 
Hurricane Katrina was the support role of the National Guard to come 
and assist in the immediate aftermath of the storm. The Guard brought 
self-sustaining and trained units with communications equipment, tools 
for response, and expertise that helped Mississippi respond faster. Our 
state is grateful for their assistance and their partnership with 
emergency management.
    There are several key areas that I wish to discuss with you today 
that need to be resolved in order to secure our preparedness in 
partnership with the National Guard to address disasters:
        1. Authority to maintain and control the National Guard should 
        be restored to the Governors for their use during disasters and 
        other civil emergencies;
        2. The National Guard's utilization of the Emergency Management 
        Assistance Compact (EMAC) during Hurricane Katrina worked well 
        and should continue to be a strong component of the nation's 
        mutual aid system; and
        3. National Guard equipment should be maintained and updated to 
        ensure that the Guard can fulfill domestic missions.
    Before I begin discussing those subjects, I want to highlight the 
dual mission of the National Guard and the importance of their support 
during emergencies and disasters to states. The National Guard are 
citizen soldiers who are often first responders in their daily jobs and 
know their states and towns. They know what needs to be done in times 
of disasters and train and prepare alongside their emergency management 
agencies. These solders are also the ones who are called to duty when 
Governors need assistance with disasters, emergencies, supplemental law 
enforcement or military support for airports and borders in homeland 
security missions, and counter drug activities. These citizen solders 
are also called to duty in Iraq and in other international hot spots to 
assist with the defense mission of our country. The emergency 
management community appreciates their partnership and strongly 
supports efforts to restore appropriate authority and assistance to the 
National Guard to support all of their important missions.

    Restoring Governors' Control of the National Guard During Times of 
Disaster
    The value of the National Guard during emergencies has never proved 
itself more than during the response phase of Hurricane Katrina. When 
local police departments, fire departments and emergency services could 
not respond because of destroyed equipment and severed communications 
systems in Mississippi, the National Guard eagerly stepped in to 
maintain control and assist victims with immediate response assistance. 
These missions were always under control of the Governor, as the 
Constitution provides.
    Last year, the final conference report for the John Warner National 
Defense Authorization Act (Public Law 109-364) made changes to limit 
the Governor's authority over the National Guard during times of 
domestic emergencies or disasters. Section 1076 of the Act allows for 
the President to take control of the National Guard during a natural 
disaster or emergency without the consent of a Governor. This change 
could cause confusion and complicate the chain of command for the 
National Guard in response to emergency situations. Previously, the 
``Insurrection Act'' provided for the Governor to maintain the control 
over the National Guard and to allow the President to take control in 
rare and exceptional circumstances. At the same time, the Robert T. 
Stafford Disaster Recovery and Relief Act places special authority with 
each Governor for responding to and preparing for disasters and 
accounts for utilization of the National Guard as a key asset to 
fulfilling the mission. These new changes may place the safety and 
welfare of citizens in jeopardy because of national missions, versus 
state missions. Additionally, the change could confuse the Guard's 
mission in a Title 32 status versus a Title 10 status. Posse commitatus 
issues could be an issue as well if the President called the Guard up 
to fulfill a domestic mission.
    The current Defense Authorization language could confuse the issue 
of who is in charge of commanding the Guard during a domestic 
emergency. The bill, as signed into law by the President, does not 
require the President to contact, confer or collaborate with a Governor 
before taking control of a state's Guard forces. This language was 
included by Congress and signed into law by the President despite the 
opposition of Governors, NEMA, and others. The current law could 
negatively impact the decision-making process and speed with which the 
National Guard currently acts in consultation with Governors to respond 
to an emergency either within or outside of the states through mutual 
aid. Further, the amendment exacerbates the current manpower and 
equipment shortages in all states because of demands in Iraq and 
Afghanistan.
    Changes to restore the Governor's authority over the National Guard 
are supported by NEMA, the National Governors' Association, the 
Adjutants Generals Association of the United States, the International 
Association of Emergency Managers, and the National Association of 
Counties. H.R. 869 and S. 513 have been introduced by Congress to 
repeal Section 1076 of the 2006 National Defense Authorization. NEMA 
supports these bills and a vehicle to open up a dialogue between 
Congress and the nation's Governors to best address how to enhance the 
use of the National Guard in responding to domestic disasters and 
emergencies.

Strengthening Mutual Aid Through EMAC
    The mutual aid assistance provided during 2005 vividly exposes the 
interdependencies of the nation's emergency management system. For 
Hurricanes Katrina and Rita, the Emergency Management Assistance 
Compact (EMAC) fulfilled over 2,174 missions with 49 states, the 
District of Columbia, the U.S. Virgin Islands and Puerto Rico providing 
assistance in the form of 65,919 civilian and military personnel and 
equipment assets to support the impacted states. The estimated costs of 
this assistance may exceed $829 million. The National Guard sent in 
support of the response mission were sent under Title 32 status, and 
remained under the Governor's control at all times. EMAC allowed for 
reimbursement, liability protection, worker's compensation protections, 
and allowed the home state Governor to call back the units if needed in 
their home state for another domestic emergency. All of the key Post-
Katrina After Action reports cited the nimble ability of EMAC to 
respond based on the impacted states' requests. The nature of the 
nation's mutual aid system demonstrates the need for all states to have 
appropriate capabilities to respond to disasters of all types and 
sizes. Every state needs to have strong National Guard and emergency 
management cooperation. The increased reliance on mutual aid due to 
catastrophic disasters means additional resources are needed to 
continue to build and enhance the nation's mutual aid system through 
EMAC.
    NEMA is the administrator of the Emergency Management Assistance 
Compact (EMAC), the state-to-state mutual aid system was referenced as 
a key achievement and best practice to be built upon in many of the 
reports on Hurricane Katrina. EMAC is not a perfect system and strives 
to achieve continuous improvement. NEMA's members are proud of the 
success of the system and support initiatives to bolster operational 
response and elevate awareness of how EMAC works. NEMA is working to 
enhance its online broadcast notification, information, and resource 
management system, conducting outreach programs to share information on 
EMAC with state and local government agencies and national 
organizations representing various emergency response disciplines. NEMA 
is also working on integrating EMAC into state training exercises; 
enhancing EMAC's resource tracking system; updating the EMAC protocols 
and guidelines to implement lessons learned; and developing additional 
training materials and development of a cadre of trained EMAC personnel 
to deliver the EMAC field courses aimed at educating both state and 
local level emergency responders on the EMAC system.
    While EMAC is a state-to-state compact, FEMA funded the program in 
2003 with $2.1 million because of the national interests in mutual aid. 
The EMAC grant will end on May 30, 2007. The Post-Katrina FEMA Reform 
Act authorizes $4 million annually for the program; however, no funds 
have yet been appropriated for FY 2007. We hope we can count on this 
Committee, that included the initial language authorizing EMAC, to 
support funding in the next budget cycle.

Adequate Funding for Maintaining and Restoring Equipment for the 
National Guard'
    As previously mentioned, our citizen soldiers can only be effective 
with training and adequate equipment to do their jobs in both the 
domestic and in the international theatre. Currently, National Guard 
divisions returning from Iraq or other deployed missions are required 
to leave behind key equipment that has dual use functions for domestic 
emergencies such as personal protective equipment, fire suppression 
equipment, and communications equipment. These are left behind to 
continue the missions by other units, however National Guard units must 
be reequipped in order to be ready and prepared to respond to domestic 
missions when they return home. Equipment shortfalls must be identified 
and necessary budget authority must be made available to ensure that 
our National Guard forces are prepared for all disasters and 
emergencies.
    The National Guard is a force multiplier on the international scene 
and at home for domestic emergencies. The dual-hatted missions must be 
supported and adequately resourced. National security and homeland 
security have changed over the last six years, as has the National 
Guard's mission. Resources must meet the needs of the mission changes.

CONCLUSION
    We appreciate Congress' increased attention and focus on disaster 
preparedness, response, recovery, and mitigation efforts. We must 
ensure that Federal, State and local governments have adequate funding 
for baseline emergency preparedness so exercises and training can 
ensure that plans and systems are effective before a disaster. 
Preparedness includes ensuring appropriate authority and funding for 
the National Guard. I thank you for the opportunity to testify on 
behalf of NEMA.

    Mr. Cuellar. Thank you, Mr. Womack, for your testimony.
    I want to thank all of the witnesses for their testimony.
    At this point, members now have an opportunity to ask our 
witnesses questions. I will remind each member that he or she 
has 5 minutes for each of their questions--or for their 
questioning--and I will now recognize myself for the first set 
of questions.
    General Scherling, as you know, the full committee received 
a briefing from General Blum a few months ago. At that 
briefing, General Blum outlined some of the alarming facts 
contrasting the Guard's equipment and readiness today compared 
with the resources that were available on or before September 
11, 2001. Can you, please, compare your current equipment level 
with that of 5 years ago before we began the Global War on 
Terror?
    General Scherling. Mr. Chairman, what I can do today is 
bring two graphic displays for you to demonstrate our equipment 
situation. First of all, what I would like to do is call up 
number 5 and bring your attention to the fact that this is a 
reflection today of the Army National Guard equipment available 
for Governors' use for homeland defense in ten different 
mission areas, mission capability areas. Those areas include 
aviation, command and control, communications, engineering, 
logistics, maintenance, medical, security, transportation, and 
our civil support teams in each State, and as you can see, we 
are at 87 percent in our medical capability along with 77 
percent in our security capability. However, the majority of 
the percentages are much lower than that.
    Very quickly, to move to graphic number 4, on equipment 
readiness and shortfalls overall, sir, today, 80 percent of the 
Army National Guard and 45 percent of the Air National Guard 
here in the United States are not ready due to lack of 
equipment and training. The impact that is felt is very 
personal by members of our units just as Sergeant Edgar and 
Sergeant Stoltzfus can experience day to day in their units 
back home. If you do not have money to turn on lights and you 
do not have trucks to go out and get into to practice your 
critical mission essential tasks, it is pretty hard to be able 
to go out and execute those tasks on a day-to-day basis, in the 
State, on short notice. They also, as you would know, do not 
have the equipment available at their fingertips in order to 
perform those missions.
    Thank you, sir.
    Mr. Cuellar. Do you have a copy of those?
    General Scherling. Yes, we do.
    Mr. Cuellar. Can you provide it to the committee? Thank 
you. Thank you for your testimony.
    At this time, General Pineda, as I understand it, the Civil 
Air Patrol has had a rich history of being tasked to support 
critical homeland security operations throughout the country. 
Between July 1942 and April 1944, the Civil Air Patrol's 
southern liaison patrol monitored the border between 
Brownsville, Texas and Douglas, Arizona, and being from Laredo, 
it is probably in the middle of those two points. Being from 
Texas, I think we have got about 2,000 miles of U.S. Mexico 
border. Can you please explain how CAP has evolved since the 
days of the southern liaison air patrol and why this operation 
has ended?
    General Pineda. What happened was that, first, it was a 
funding issue. When the chief gave us the order to go on 
working in Arizona, we had to use our own funding for the 
training and make it into a training mission because there was 
some funding from the Air Force to take that particular 
mission. So we did it for 21 days; it was very successful, but 
we had to stop it. One, the funding for the training ran out, 
and number 2, there were questions on the posse comitatus.
    Now, you have got to keep in mind that the Civil Air Patrol 
is a civilian organization. We are the Air Force auxiliary when 
we do missions for the Air Force, but the reason for the posse 
comitatus was that Congress gives the funding, our funding, 
through the Air Force--we come under that particular statute--
but it all depends on who you ask for an opinion; the opinions 
are different, but we need to do something to remove that so we 
can help the local communities and the States to be able to 
perform their missions, and if we get the funding, we can 
patrol not only the southern border but also the northern 
border.
    I have met with the chief of staff of the Canadian Air 
Force at a meeting that we had in Canada, and the chief told 
me, ``whenever you are ready, we will do it together on the 
northern part,'' but we are not even close to that yet, but we 
can do it. I can have an aircraft 2 hours after we get the 
call, and I can have one on each border right away while the 
other ones are pending. As for the mission, we can do it, and 
we can get it done. Absolutely.
    Mr. Cuellar. Who tasked this? Again, going back in history, 
who tasked this back in the 1940's?
    General Pineda. In the 1940's, we were under the Department 
of the Army-Air Force, so we were working directly for them--it 
was easier--but as the years went by, different rules came into 
play. Now we have to be tasked by the Air Force. So, if 
Homeland Security wants us to do the homeland security 
missions, they have to go to the Air Force and put in their 
request. Sometimes it may happen. Sometimes it may not happen 
depending on what kind of a mission it is.
    Mr. Cuellar. Who can request CAP's missions right now, 
today?
    General Pineda. Right now, today, each one of the State's 
emergency managements can request the CAP mission, but they 
have to go through the Air Force.
    Now, some of the States have an MOU which is with us. Not 
all of the States have that. If it is a State mission, then the 
emergency managements can go straight to the Civil Air Patrol 
National Operations Center if they have an MOU, and the State 
pays for that funding. The problem is that, if we do a State 
mission like that, our professional volunteers are not covered 
by Federal insurance at all.
    Mr. Cuellar. Can a nonprofit or a local entity request your 
mission or would that have to go through a State?
    General Pineda. A nonprofit--well, let us say, for example, 
that the sheriff's office requests--
    Mr. Cuellar. Yes. Let us say, with regard to the Southwest 
Sheriffs' Association, which Chairman Thompson and myself were 
just meeting with a while ago, they are a nonprofit because all 
of the sheriffs from Texas, Arizona, New Mexico, and California 
have all gone in together.
    Could that nonprofit request your assistance?
    General Pineda. They could in two ways. If we have an MOU 
with your State, we can do it as a State mission. Remember now, 
there is no insurance for our volunteers. If you go and want a 
Federal mission, you have to go through the Air Force, and then 
it comes back to us.
    Mr. Cuellar. OK.
    General Pineda. But again, it may take hours or it may 
never happen.
    Mr. Cuellar. It may never happen?
    General Pineda. Absolutely. We have some missions where, if 
we have a question on the posse comitatus, it gets denied right 
away, so then we go and argue and argue, and sometimes we can 
change their minds or restrict the mission to certain 
activities.
    Mr. Cuellar. OK. I know Charlie is going to ask you 
<dagger><dagger> I mean Mr. Dent is going to ask you some 
questions in a few minutes on this because I know he has been a 
big proponent.
    I like the idea, but I want to know what can we do within 
the framework right now. In other words, have you been in 
Texas, as an example? Charlie has been there, in Laredo, and 
the aircraft that is available is not there. I think most of it 
has been up there in Arizona, and I can understand that, but in 
Texas, you have got 2,000 miles, and if you have ever been to 
West Texas where you have got mountains, then in West Texas, 
you know exactly what I am talking about. Have you done a 
mission in Texas as an example?
    General Pineda. We are doing missions in Texas right now, 
and they are being paid by the State.
    Mr. Cuellar. Where?
    General Pineda. I am not familiar with the area, but it is 
the entire Mexican border, and it is a mission that is being 
paid by the State. So we are doing about three flights a day in 
Texas, but it is not funded by the Federal Government at all.
    Mr. Cuellar. OK. Can I follow up? Because I am from the 
border, and I did not even know you were there.
    General Pineda. Absolutely.
    Mr. Cuellar. I lived there for most of my life.
    Let me go ahead and give the other members some 
opportunities.
    At this time, I will recognize the ranking member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for 
questions.
    Mr. Dent. Thank you, Mr. Chairman.
    General Pineda, I do want to follow up on some of the 
questions that Chairman Cuellar has asked.
    Specifically, how does the State or the Federal Government 
currently request assistance from you at the CAP? How do they 
currently do that now <dagger><dagger> through an MOU? Is it 
always through an MOU from the State?
    General Pineda. If we have an MOU, they can request it 
directly. If it is a national disaster like with Katrina, it 
has to come through the Air Force and then back to us.
    Mr. Dent. Who makes that request?
    General Pineda. The emergency management or the Governor 
can make the request.
    Mr. Dent. So the State emergency management office?
    General Pineda. Yes. The adjutant general of the National 
Guard can make that request, too.
    Mr. Dent. OK. What was the cost of your operations during 
Katrina? Do you have any idea what that was?
    General Pineda. Oh, God. I can get you the answer, but one 
of my--the executive director is sitting here, and I can get 
you the figures later on. I do not have the figures.
    Mr. Dent. Well, we can get that after the fact.
    Who paid for the mission? Does that come out of your budget 
or the Air Force's?
    General Pineda. Well, originally, that one--before the 
storm hit, Katrina, I put on standby all of the wings around 
Mississippi and Louisiana. To be exactly--I got a phone call 
from someone at the Air Force who said, ``We are not paying for 
that. You cannot move anybody.'' So my response to that was 
``these people are going to need help in the morning, and we 
are moving in.''
    It took a few hours to finally get the Federal mission 
number to pay for the expenses, but we were able to do it. We 
were there like the next morning after the hurricane, but right 
after the hurricane, the Civil Air Patrol members in those 
States went out and helped the victims, waiting for the other 
1,700 members who were coming in to help them out. Those 
missions at the beginning were paid from our budget, and later 
on, we were reimbursed by FEMA and the Air Force.
    Mr. Dent. OK. As you are aware, I have introduced 
legislation, H.R. 1333--we call it the Civil Air Patrol 
Homeland Security Support Act--which would encourage greater 
use of the Civil Air Patrol to support both the border security 
and emergency response missions of DHS.
    Do you believe this legislation would help the CAP in the 
Department of Homeland Security's missions?
    General Pineda. Absolutely, sir.
    What that is going to do for us is--right now, any Federal 
agency that requests a Civil Air Patrol has to go through the 
Air Force. By doing that MOU with the Department of Homeland 
Security, we can work directly for them and with them in a 
cooperation agreement, and there is no doubt about it that we 
will expedite the response of what we can do for the country.
    Mr. Dent. Just a quick follow-up question on that point.
    Currently in my State, for example, we have had floods from 
the Delaware River. I believe the Coast Guard has arrangements 
with Civil Air Patrol, and you were providing photo 
reconnaissance of the disaster areas.
    Are you currently doing that now with the Coast Guard?
    General Pineda. We are doing that. Plus, we also 
participate with the task force in the Philadelphia--
    Mr. Dent. Is that with or without an MOU?
    General Pineda. Yes, without an MOU. The Coast Guard 
requested us, and we are working directly for them in that 
area, and that is a daily operation.
    Mr. Dent. Chairman Cuellar just mentioned to me--I feel we 
need to formalize this relationship through legislation. Do you 
think we need legislation to accomplish this task or is this 
something that can simply be done by some administrative 
machanism between DHS and the Air Force?
    General Pineda. No, sir. I think we need to put it in 
stone, have it written in stone that this is what we can do. 
Right now, if we leave it in the air, it could work today on a 
handshake, but it may not work tomorrow or the delay may be 
there. If we can work directly for the Federal agencies and the 
State agencies without having to circumvent that, it will make 
it a lot easier, and our volunteers can be deployed a lot 
faster and a lot easier.
    Mr. Dent. I would like to yield to the chairman.
    Mr. Cuellar. Yes. I am sorry.
    We want to work with the ranking member. We want to know 
exactly--I want to know exactly--why we need this in 
legislation. I mean you gave me the reason that it worked 
better. Just convince us as to why we need it in legislation, 
because it is a good idea, and we want to work with the ranking 
member, but I am trying to figure out why we need it in 
legislation. Why is it that the framework that we have right 
now does not work? Why do we need to formalize it in statute? 
If you can just answer that.
    General Pineda. It would diminish the red tape and the 
time, especially when time is required for us to be able to 
deploy to help the local communities or Homeland Security. The 
way it works right now, it may take days or it may not happen 
to get that ``OK.''
    By doing this legislation, it will put a direct line to us, 
and it will authorize us to work with the other Federal 
agencies and the States without having to have the 
circumvention.
    Mr. Cuellar. I will yield back and give you another minute 
on your time since I took it.
    Mr. Dent. Thank you, Mr. Chairman.
    Just quickly, General Pineda. If we were to enter into this 
relationship between the Air Force and DHS for the utilization 
of the CAP on the border, would this have any impact, do you 
think, on your working relationship with the States? You 
already have one, for example, with Texas, I guess, where you 
do have an MOU for some limited border security activity.
    General Pineda. No, absolutely not. We still will be able 
to continue those with no problem.
    Mr. Dent. OK. That is good news.
    I guess my other question then would be to General 
Scherling. How do you see this legislation, and how do you see 
the working relationship between CAP and the Guard or the Air 
Guard?
    General Scherling. Sir, I have actually worked with the 
Civil Air Patrol on two occasions in previous positions--one 
during the floods in North Dakota where we had a very robust 
relationship with our Civil Air Patrol and were able to reach 
out for their support on very short notice. Lastly, in my past 
job with the joint director of military support, we were able 
to reach out to Civil Air Patrol through DOD as we received 
requests for assistance from various agencies or States, and 
those requests typically come through the defense coordinating 
officer at a disaster site directly into DOD, and at that 
point, a decision is really made as to where the best place or 
the best capability exists, whether it is with the Civil Air 
Patrol or with another active component service at that point.
    Mr. Dent. Do you have any objections to the legislation I 
have introduced, H.R. 1333, on behalf of the National Guard? 
Are there any objections to this?
    General Scherling. Sir, I do not have any objections.
    Mr. Dent. Do you support it then?
    General Scherling. Sir, I would say that I believe that 
procedures exist today to do exactly what the Civil Air Patrol 
desires to do.
    Mr. Dent. The Civil Air Patrol seems to think we need to 
put this in statute, to put this ``in stone'' so to speak, and 
I just would be curious to find out why you feel that we have 
procedures in place that can formalize these relationships, and 
if that is the case, then why hasn't it happened?
    General Scherling. Sir, in my estimation, we do have 
formalized relationships, especially with each of the States, 
and I think General Lowenberg could probably speak to the 
relationship within his State. I believe that the procedures 
also exist within DOD at this time.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Dent.
    The chair will now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practices, I will recognize members who 
were present at the start of the hearing, based on seniority on 
the subcommittee, alternating between majority and minority. 
Those members coming in later will be recognized in the order 
of their arrival.
    At this time, the chair recognizes for 5 minutes the 
gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. I am the only other 
member here.
    Mr. Cuellar. Yes, sir.
    Mr. Etheridge. Thank you. Let me thank you for calling this 
meeting. I think it is important.
    Historically, the National Guard has been one of the 
pillars of disaster response in this country, and I was 
dismayed, as I think many of the members of this committee 
were, when receiving briefings on the shortage of equipment and 
staffing facing our Guard units under certain conditions. The 
2007 hurricane season is only about 36 days away.
    With all of the shortages of equipment and personnel and 
our ability to respond, General Lowenberg and Mr. Womack, we 
saw with Hurricane Katrina that a wide array of resources--
local, State, Federal, and private--were brought to bear, and 
even with all of these resources, we really were not able to 
get our act together at the top.
    I am from North Carolina, and North Carolina sort of sticks 
out in the Atlantic, and if one comes up, we tend to get 
hammered. We are in the danger zone. We are pretty well 
prepared, I think, as, I think, Washington State probably is, 
but you know, if we had a major hurricane, we would be 
stretched pretty thin, would be my guess, as probably yours 
would.
    If your State's resources were exhausted or stretched thin 
to the breaking point in a major disaster, who at the Federal 
level would you turn to to bolster your ability to respond at 
the State level? second, how confident are you that the 
resources are there to be able to respond? third, if Federal 
resources or the National Guard were to be brought in to help 
out, are you concerned about difficulties that might arise with 
communications, command and control, and what do you think can 
be done to overcome these difficulties?
    General Lowenberg. Thank you, Congressman.
    To put the earlier testimony of General Scherling in 
perspective, for my State, which would probably be not unlike 
North Carolina--and by the way, our 81st brigade deployed to 
Iraq with the brigade from North Carolina in the 2004-2005 
rotation.
    We only have about 55 percent of our Army National Guard 
authorized equipment on hand. The dollar value of the shortfall 
is $360 million for our State alone, and when you translate 
that to the kinds of equipment that had dual use applications 
for domestic operations, we are short 321 Humvees, 143 large 
vehicles--the very things that we rely upon in every State for 
responding to disasters of every magnitude. Frankly, that 
handicaps every State in the Nation in responding to a 
catastrophic-level domestic emergency, and I would not turn to 
Federal officials first or to Federal resources first. I would 
turn to the adjacent States, and I would turn to every other 
State in the Nation under the Emergency Management Assistance 
Compact. We would work hand in hand with the State emergency 
management directors of all of the other States and the 
adjutants general of every other State because we are all 
dealing with the tyranny of time and distance, and there is a 
very short decision point between the Governor and the adjutant 
general in launching aircraft and in deploying personnel and 
equipment in every State, and we saw that performed 
magnificently, with no notice, in response to Hurricane 
Katrina.
    General Lowenberg. I would work with FEMA region 10 which 
we host in Bothell, Washington. And that would be the entry 
point for our looking for Federal resources. By the way, I 
think the strides that have been made under Administrator 
Polison's leadership in filling positions in FEMA based on 
professional experience are showing big dividends early on, and 
I applaud them for the quality of the appointments they have 
made of late.
    And that is where we would turn. And there would be 
confusion. When Federal military resources began showing up in 
our State it would be a chaotic situation.
    Mr. Etheridge. Thank you. Mr. Womack, anything you want to 
add to that?
    Mr. Womack. I totally agree with what he said about EMAC. 
That is the first thing we would turn to. The active duty 
forces need to come in as a support role as part of that 
overall unified command concept. But absolutely, go with EMAC 
resources.
    Mr. Etheridge. General Scherling, one of the few positive 
images most people got out of Hurricane Katrina was out of the 
National Guard helicopters and the Coast Guard rescuing 
citizens from the tops of their houses. Could the Guard repeat 
that performance today? We in North Carolina have relied on our 
Guard in times of disasters, especially in Hurricane Floyd when 
we had to do the same thing in a major flood. Can we meet the 
domestic needs? What would it take in terms of financial needs? 
We have heard some of it already. It is the Guard's readiness 
to aid homeland security in a disastrous situation. I have 
always believed it is kind of hard to have homeland security 
until you have hometown security.
    General Scherling. Right now our aviation assets are in the 
red. And we have 37 percent of our aviation assets on hand. 
What I can tell you that we are doing to prepare for the 
upcoming hurricane season is to look at our essential 10 types 
of equipment and capabilities that we need. In looking at those 
by State, we have been able to identify the shortages and to 
prework EMAC agreements with neighboring states.
    Mr. Etheridge. Within regions?
    General Scherling. Within regions to fill those shortages. 
I will tell you it is much like the fire department. If you 
live in a community and you have a fire department and they 
have to borrow a truck or a ladder from a neighboring community 
and you have to wait for that to arrive your house might burn 
down in the meantime. So right now we do have equipment 
shortages that we could use some help on. And the National 
Guard has a budget card which we have made available to you 
that details those budget requirements, sir.
    Mr. Etheridge. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Cuellar. Thank you. Thank you, Mr. Etheridge.
    The purpose of FEMA--this is to Mr. Cannon--the purpose of 
the FEMA Reform Legislation Act of last fall was to strengthen 
FEMA's organizational capacity for both preparedness and 
response. Effective preparation and response requires the 
affected partnerships with not only among the Federal agencies, 
but also to include also Federal, other Federal, State and 
local government's nonprofits, entities such as the Red Cross 
in the private sector. Has FEMA clearly defined the roles, the 
responsibilities, expected outcomes for each of its 
organizational components as well as your partners under this 
new organizational structure? What have we gotten from a piece 
of legislation that has become law now?
    Mr. Cannon. Probably the most significant change that had 
to occur was the bringing back of the preparedness director 
into FEMA along with its planning capabilities and experience 
and training funding capabilities. And the preparedness that 
has returned is very different than the preparedness that left 
a few years ago. So it didn't come back just to be hung on the 
side of FEMA, but actually totally integrated into our plan 
operations and coordination.
    Every component in FEMA has gone through a reorganization 
that allows it to be more mission focused. And we strive every 
day to maintain relationships with all of our partners, both in 
the inner agency and in the states and local governments. We 
have done an awful lot of work with strengthening our region so 
they can strengthen the relationships with the states and the 
locals. We are actually involved in an assessment right now 
with our 11 hurricane prone states where we actually have FEMA 
folks with state people in the states dealing with major urban 
areas in large population centers in high risk areas developing 
planning and contingency plans for that right now.
    An example would be the staff we have in New York City. One 
of the concerns this year is North Atlantic hurricanes coming 
into part of the country not normally susceptible to 
hurricanes. We were very fortunate last year, not one touched 
the United States. We think this year may be a little bit 
different.
    So we work with NEMA very closely and with all the State 
emergency management agencies. We have a nonprofit sector 
office now in FEMA that coordinates with the DHS nonprofit 
sector office. We have an organization dealing with 
faith<dagger>based services now as part of our preparation. So 
the strengthening and the lessons learned from Katrina have 
been integrated into FEMA's operational planning elements.
    Mr. Cuellar. Thank you, Mr. Cannon.
    Mr. Cannon. You are welcome, sir.
    Mr. Cuellar. General Lowenberg, you talked about the 
language that got changed last year and the lack of 
transparency. Someone of us on the inside saw the lack of 
transparency. Because you saw it the same way some of us did. 
Are the governors are you all pushing to repeal the language 
and put it back the way it was or are you saying look at the 
current language and make some changes to it? Are you just 
saying repeal it and go back to the previously existing 
language?
    General Lowenberg. It is the latter. And that is to repeal 
those provisions which were frankly inserted the conference. 
And many of the conferees didn't even see the language.
    Mr. Cuellar. Thank you. Mr. Pineda, could you provide us, 
and I still like what you all were doing, being on the southern 
border, I like what you all were doing in the 1940's. Could you 
provide us, if you don't have this information, sort of provide 
this to the committee, tell us exactly what you are focusing on 
the southern border. For example, we got the northern border. I 
understand the northern border is important, I know the 
southern border is important, I know the coastlines east and 
west are important. But if you recall the last Congress last 
year when they talked about putting a fence, for example, they 
said put a study in the northern part of the border of the 
United States, but in the southern border put a 700-mile fence, 
which I disagree. I think we can use taxpayers dollars to 
efficiently to patrol our borders. Can you tell us exactly what 
you do in the southern borders, since most of the focus has 
been on the southern border?
    Mr. Pineda. Right now the air crews that we get, not only 
in Arizona, but that we presently do in Texas, they--
    Mr. Cuellar. And I do want to know exactly where you are 
flying in Texas. I came from Texas.
    Mr. Pineda. We will give you that information right after 
the hearing. They do the patrolling. Probably about 3 flights a 
day we were doing. If they see people in distress, and we have 
to emphasize that, we call the border patrol agents on the 
ground, we will give them the location, we will stay with those 
people until the border patrol arrives there. We patrol about a 
mile inside the United States. We don't across the border, we 
stay on our side. We fly all along just watching and observing 
the activity on the ground and reporting it to the time border 
patrol on the ground which we have direct communication with.
    Mr. Cuellar. Are you allowed to fly with let's say a local 
law enforcement entity or individual that might know the ground 
better than somebody coming in from another country? For 
example, and I'm using the Southwest Sheriff's Association. 
What would happen if you fly with local law enforcement? Are 
they allowed to do that and provide you that information?
    Mr. Pineda. Absolutely. They can fly with us. We can put 
them in the plane with us. And we have done that in the past so 
that is not a problem. Not only on the border. Anywhere. A law 
enforcement official can ride in our aircraft, so they can be 
the eyes too. And since they know that area better than anybody 
else, we definitely want to use them even more. But yes, they 
can fly with us.
    Mr. Cuellar. I would love to, of course, work with Mr. Dent 
and follow up after the meeting and want to know some specifics 
on that. At this time, I will recognize Mr. Dent with any 
follow-up questions.
    Mr. Dent. Thank you, Mr. Chairman. And to Mr. Cannon, I am 
seeking some clarification on something General Scherling just 
said, where she indicated the National Guard does have an 
existing relationship and mechanisms in place to utilize the 
Civil Air Patrol. And that relationship is DOD to DOD.
    My concern is that the Civil Air Patrol may have a more 
difficult time working with non-uniformed entities. So if the 
Department of Homeland Security wanted to use a Civil Air 
Patrol asset for some kind of emergency response or 
surveillance flight, how would you do it? And would DHS provide 
a similar indemnification provided say by the Air Force?
    Mr. Cannon. We would actually, sir, use the--they would be 
part of the Air Force when we utilized them. We would go to 
what is called JDOMS, the Joint Director For Military Support. 
And JDOMS would go to NORTHCOM and they would give it to the 
Air Force and give them a mission assignment. If it was a FEMA 
mission in that case, as you heard the General talk about, in 
Katrina they would be reimbursed under the Stafford Act. They 
would actually be deployed in our mission as part of their Air 
Force responsibility. That is the mechanism General Scherling 
was actually talking about that we have utilized.
    Mr. Dent. If I understood General Scherling, I think I 
understood what you were saying. That relationship is 
formalized between the Air Force and the CAP. That is all 
within DOD. And I guess I understand that you have that formal 
relationship.
    General Scherling. Typically, when the National Guard uses 
CAP, it is done at the local level, at the State level. And so 
those arrangements are handled from the Adjutant General 
directly to CAP. Putting on my other hat as the former JDOMS, 
when there is an inter agency partner that wishes to use the 
Civil Air Patrol like FEMA, they submit a request for 
assistance which goes into DOD. And that request for assistance 
is then delegated to the Air Force to respond. And usually 
there is a vetting process to determine which capability and 
which service can best provide a resource. It may be Civil Air 
Patrol, or it may be a resource from a different service. But 
that vetting process takes place before the mission assignment 
is given to the Air Force. And it is really based on what the 
requirement is at the local level.
    Mr. Dent. General Pineda, while the Civil Air Patrol and 
the National Guard may be able to work together effectively, 
how do you work directly with DHS? I want to hear from you on 
your perspective. Is the issue perhaps homeland security 
missions on a daily basis may require some kind of a direct 
line of communication between Civil Air Patrol and DHS?
    General Pineda. That definitely would help if we can have 
that direct communications. As General Scherling stated, we 
have no problem working with the local National Guard. That is 
no problem whatsoever. The relationship is great. We can do it 
at the State level. But when it comes to the Department of 
Homeland Security, if they request us right now, we probably 
won't be able to respond for a day or 2 days. By that time, 
whatever they request for us they don't need us any more 
because the time has gone by. If we have the direct 
communication with them then we can respond to their request a 
lot faster.
    Mr. Dent. So you think it would be helpful then for 
basically CAP to be able to go directly to a State agency in 
many cases, to DHS?
    Mr. Pineda. Yes, absolutely.
    Mr. Dent. No further questions at this time, so thank you 
for your testimony.
    Mr. Cuellar. For any of the panelists, in your opinion, do 
you think that the Posse Comitatus Act must be amended in order 
for the military or National Guard to provide support during a 
disaster?
    General Lowenberg. None whatsoever. Mr. Chair, first of 
all, please recognize that when the National Guard is operating 
in State status at State expense at the governor's direction, 
Posse Comitatus does not apply. Equally important, when the 
National Guard is operating in Federal status under Title 32 at 
Federal expense for a pure Federal purpose or for a joint State 
Federal purpose, as we are on border security with Operation 
Jump Start, again Posse Comitatus does not apply. Because 
ultimately, the National Guard, even when performing a Federal 
mission for the benefit of the Federal Government, remains 
under control of the governor of the supporting State.
    Mr. Cuellar. Say that one more time. Because I know when 
the guards were going down to the border, some of the local 
folks were complaining about that, that it violated that. So 
you are saying it doesn't because?
    General Lowenberg. It doesn't because when the National 
Guard performs even a Federal mission at Federal Government 
request, as we have done on both the northern and southern 
borders since 9/11, the Guard members remain under the command 
and control of the supporting State. Therefore, Posse Comitatus 
does not apply in any way. Quite frankly, we followed Posse 
Comitatus testimony before the Senate and House Armed Services 
Committee very carefully since 9/11 and there has never been a 
witness to include former Secretary of Defense Donald Rumsfeld 
that has ever suggested that Posse Comitatus needs to be 
changed. It serves very well for all the historic reasons, for 
which it was enacted in 1807.
    Mr. Womack. Which is another reason to put the law back the 
way it was before last year. Is because as I understand it, 
once you do Federalize these National Guard troops, then you 
run into this Posse Comitatus issue, correct?
    General Lowenberg. Yes. Mr. Chair, if I may add to that 
response. The national defense authorization language that the 
house resolution seeks to rescind simultaneously amended the 
Posse Comitatus Act, because it is an amendment to the 
Insurrection Act. They are all interrelated.
    Mr. Womack. And there is historical precedence where the 
President 30 years ago, 40 years ago did have to, in fact, 
invoke the provisions of Federalizing the National Guard. It 
happened in my State in the civil rights era. There were 
provisions before last year's amendment to that Act. We just 
need to put it back the way it was.
    Mr. Cuellar. OK. Good. Mr. Cannon, criticism has been off 
the levity against FEMA so that there is too much red tape and 
bureaucracy involved. And in the event of a disaster, local 
FEMA personnel who are on the ground are in the best position 
to make the assessments and real time decision. What has FEMA 
done to empower those local folks to make some of those 
decisions since they are on the ground?
    Mr. Cannon. One of the things we have done is to get those 
folks on the ground quicker who have the ability to make those 
decisions. But all of our events start locally some place. And 
so what we have done is strengthen the roles of our regions to 
get someone to the scene on the ground as quickly as possible 
and then make sure they have the proper training and the proper 
tools to be able to answer those responses from the citizens.
    If we looked at the Christmas tornados in Florida, we were 
there literally the next day when the sun came up. You had some 
tornados in Texas yesterday. We are already in the Texas State 
Emergency Operating Center right now as we are sitting here. So 
FEMA is far more aggressive in getting its resources on the 
ground and empowering those people to be able to make the right 
decisions to bring support to people.
    I think one of the major issues we have had is red tape. 
One of the things we are constantly functioning with is to 
eliminate that, get back directly to what the statute 
authorizes us to be able to do, and that is get help in the 
hands of people as soon as possible. And that is what FEMA is 
about today.
    Mr. Cuellar. So my county next to where I live, in Eagle 
Pass, for example, run through the procedures that got you all 
to be there in a timely basis.
    Mr. Cannon. Effectively what happens is that there will be 
<dagger><dagger> FEMA is a system of emergency management in 
our country that starts at the local level and comes on up. So 
if Mississippi were to have an incident there would be a local 
management manager. And that person would try to respond and 
deal with those entities within their capability. If they could 
not they would go to their next level, a county or a parish. If 
they could not, they would go to their State level. If the 
State can't, they will come to the FEMA region and then the 
FEMA region will notify FEMA National and we will launch.
    There are cases now that when we see an event that is so 
significant, we know that that chain of occurrences are going 
to happen, we don't wait, we begin to start to deploy and to 
move. Now, we are very careful we will not step on the rights 
and the toes of the States. But we also don't want to be 
standing by with a life ring and then waiting until the State 
says, OK, I have drowned enough now, throw it. So we want to be 
closer and ready to be able to--so we move things and stage 
them and we start to move people right there.
    So essentially, what we would do in that local situation is 
we would connect with the State Emergency Operation Center, 
their liaison with a FEMA representative and get the people on 
the ground together with the State. We are not doing anything, 
but we are right there beside them, so that if they need 
something, they turn to us and it is done. We don't have to 
wait until their governor gets a formal requisition before we 
get somebody on the ground to help them. And that is a 
significant change in the way FEMA does business. And there is 
no doubt it is a change after Katrina.
    Mr. Cuellar. Thank you, Mr. Cannon. Mr. Womack, do you 
agree with Mr. Cannon?
    Mr. Womack. I have seen some very positive changes in FEMA 
in the last 18 months. The process is better as far as getting 
the people on the ground quicker. It is better as far as the 
overall situation of local awareness. Region 4 now puts out 
briefings daily by e-mail to all the States as well as all of 
their Federal partners that says these are the potential 
situations, these are the things that have actually happened. 
So that part of it, I think, is better.
    We do have to be very guarded that FEMA does not ride in 
there and is perceived as trying to take over from the local 
government or from State government. We have got to be very 
careful with that.
    I think the biggest challenge for FEMA right now is post 
Katrina and 9/11, there is so much of the senior leadership and 
response that has left the Agency. FCOs that I worked with, 
Bill Carlyle and Scott Wells, top notch individuals, they are 
gone. The people that are being hired are good people. They 
just don't have the experience level there. And the hiring 
process, from what I can see of FEMA, because they are through 
Homeland Security and the security clearances, for senior level 
positions it takes 6 months to fill positions. So they are 
having to use interims or they are having to use contractors to 
try to fill in the gaps.
    So I think the processes are better. I am concerned about, 
quite frankly, the experience level of a lot of these key 
response individuals.
    Mr. Cuellar. Mr. Cannon, can you respond one more time and 
we will move on. I think this gives us a good way to kind of 
hear each other. That way we can digest the information and try 
to help you do your job better.
    Mr. Cannon. There is no question that a lot of extremely 
talented people have left FEMA, some at the normal end of their 
career. They have spent 30 years there and they have decided to 
move on. Others have positions as State directors. Right next 
to Mr. Womack in Alabama is a former FEMA employee who is the 
director.
    I think the key is that the Department of Homeland Security 
is allowing Administrator Polison, to hire senior level 
staffers with real world emergency management experience. I 
have 40 years of experience, I hate to say that, 40 years of 
experience in emergency management law enforcement, fire 
service and emergency medical services and government at the 
State, county and city level.
    People like myself are what is being brought into FEMA now. 
And we bring that real world on the street perspective about 
what the people really need when this happens. We understand 
that because we have been there and we have done it. And that 
is what is going to make the difference. And it is making a 
difference at FEMA. If we looked at the top 4 folks in FEMA in 
terms of the response area there are over 200 years of 
experience now in that category, so that is the difference.
    Mr. Cuellar. Thank you, Mr. Cannon and Mr. Womack. Let me 
just ask one last one and I will pass it on to my colleague 
here. The purpose of this meeting was to examine the military 
support of civil authorities during disasters. And I want to 
thank all the witnesses here. As you can see, part of our job 
on this side of the table is to digest the information, analyze 
what you have given us and then from there take some 
appropriate action. I think some of you are very specific. 
Repeal specific provisions.
    But looking at what we have to look at, I would ask all the 
witnesses if you have any other, now that you have listened to 
each of you all, sometimes as you know we have a tendency of 
just looking at our own world at a particular way, but 
hopefully with the different witnesses here, you can see that 
there are other things that we as legislators have to look at 
and try to digest it and proceed as to what we think is the 
best course of action to take.
    I would ask each of the witnesses to please contact our 
committee with any specific suggestions you might have, now 
that you have had an opportunity to listen to each other, 
because that would help us and our staff to digest and analyze 
and then decide what course of action we can take together to 
see how we can improve our roles and our responses.
    So I would ask if you all could do that as quickly as 
possible, because as you know, the process sometimes moves 
slowly here and sometimes it moves fast. And I would ask you to 
turn that over to us as soon as you have any specific 
suggestions on that. At this time, Mr. Dent, any last 
questions?
    Mr. Dent. I will be pretty brief, but thank you again, Mr. 
Chairman. General Pineda, if the Department of Homeland 
Security could task you directly, would Posse Comitatus apply?
    Mr. Pineda. That one I will have to let get an opinion from 
the lawyers. I don't think it would be a problem. But right 
now, let me say that on the flight that we are doing in Texas 
OK, for example, if you see a car coming across the border we 
can only follow the car for about 20 miles, then we have to 
stop and we have to go on our way. All we can do is notify, 
follow the vehicle for 20 miles and then we have to leave.
    Mr. Dent. You are following by air?
    Mr. Pineda. By aircraft.
    Mr. Cuellar. I am sorry, going northbound, not across the 
border?
    Mr. Pineda. Going northbound from anywhere on the border. 
We can follow them for 20 miles, but then we have to stop. 
Whether the border patrol is there or not, we have to let it 
go. If we see a group of individuals on our side of the border, 
just a group sitting there and we fly over, all we can do is 
report the sighting and we have to keep on going. We cannot go 
around and wait there until the border patrol arrives. That is 
the problem.
    Mr. Dent. I guess the Posse Comitatus question to follow up 
if DHS funded the mission, would Posse Comitatus apply, I guess 
is the question?
    Mr. Pineda. Do you know what? I am not sure if it will or 
not because it is Federal money. And I have been told that if 
we use Federal money it applies. But again, we are not a 
military organization. So there is both sides of the argument. 
Some say yes and some say no. Personally, I don't think it 
applies because we are not a DOD military organization, we are 
civilians.
    Mr. Dent. Understood. And finally what can be done now to 
increase the Civil Air Patrol's involvement in other homeland 
security activities beyond disasters? I would be curious to 
hear that you have to say what could be done to increase this 
involvement in the long term.
    Mr. Pineda. Working with the Department of Homeland 
Security and sharing the assets that we have throughout the 
United States, we have over 500 airplanes. 60 of them have very 
sophisticated equipment inside that can help them when they are 
not being used. So working with them directly will give them 
probably about over 5,000 or 6,000 pilots with 500 airplanes. 
And those are not being used at all. Not only that, but also 
the ground personnel that we have throughout the United States 
and the vast communication resources that we have. We have 
55,000 eyes and ears in the whole country and they are willing 
and able and trained to be able to help them out.
    Mr. Dent. Thank you. And just finally to General Lowenberg 
and Mr. Womack, can you just let me know quickly how the Civil 
Air Patrol has assisted upon request in your respective States?
    General Lowenberg. The Civil Air Patrol does perform 
missions in support of the Navy in Washington, for example, 
with surveillance and recognizance as subways come into 
territorial waters and come to the Bangor Homeport. We also 
request State-funded search-and-rescue mission assistance with 
the Civil Air Patrol through our State Department of 
Transportation as part of ESF under the State Comprehensive 
Emergency Management Plan.
    Mr. Womack. They are fully integrated. At the local level, 
they work and train with local emergency management personnel 
in their search and rescue. A lot people don't realize they 
have a ground search and rescue mission as well. We have a 
great relationship with them at the State level. We call on 
them frequently for a variety of reasons. We do fund them using 
State funds at that point. This is the first time I realized 
that their insurance did not cover them so these volunteers are 
putting themselves in great jeopardy because it is entirely 
possible civilian insurance would not cover them if they had an 
accident.
    Mr. Dent. Which is why we have to formalize these 
relationships to deal with indemnification issues.
    Mr. Womack. I really do think if that would be the biggest 
change in the law, if you could simply say if they are working 
and directly funded by a State or local government, then the 
insurance provisions still provide. I think that would fix a 
lot of it.
    General Lowenberg. If I could add to that. They are covered 
in the Washington State law because I assigned them a search-
and-rescue mission number and that makes the State responsible 
for that. In fact, I had paid for Civil Air Patrol aircrafts 
destroyed in the past because of a crash. So that will vary 
from State to State. As Mr. Womack said, if Congress could make 
sure the Federal Tort Claims Act covered them while they are 
performing these missions.
    Mr. Womack. Washington has got a lot more money than 
Mississippi. We can't afford it.
    Mr. Dent. I thank you all for your answers. And Chairman 
Cuellar, I thank you for holding this hearing. And I look 
forward to working with you on the legislation to see if we 
might be able to refine it based on some of the comments we 
heard here this morning.
    Mr. Cuellar. Thank you, Mr. Dent. And I want to thank all 
the witnesses for their valuable testimony and the members for 
the questions. As you know, for all on the panel, some of the 
members might have additional questions. And if you have 
additional questions, I would ask you to submit that as soon as 
possible to them and to the committee. And also as I mentioned 
at the very end of the questions, if you all have any ideas now 
that you listened to each other, we would like to get your 
specific suggestion. So hearing no further business the hearing 
stands adjourned. Thank you for being here with us.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
